APPENDICES

APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
JAMES L. KISOR,
Claimant-Appellant
v.
DENIS MCDONOUGH, SECRETARY OF
VETERANS AFFAIRS,
Respondent-Appellee
2016-1929
Appeal from the United States Court of Appeals for Veterans Claims in No. 14-2811, Senior Judge Alan G. Lance,
Sr.
OPINION Issued: August 12, 2020
OPINION MODIFIED: April 30, 2021*
KENNETH M. CARPENTER, Law Offices of Carpenter
Chartered, Topeka, KS, argued for claimant-appellant.
Also represented by PAUL WHITFIELD HUGHES, McDermott,
Will & Emery LLP, Washington, DC.

*

This opinion has been modified and reissued following a
petition for rehearing filed by Appellant.

2a
IGOR HELMAN, Commercial Litigation Branch, Civil Division, United States Department of Justice, Washington,
DC, argued for respondent-appellee. Also represented by
JEFFREY B. CLARK, MARTIN F. HOCKEY, JR., ROBERT EDWARD KIRSCHMAN, JR.; Y. KEN LEE, SAMANTHA ANN SYVERSON, Office of General Counsel, United States Department
of Veterans Affairs, Washington, DC.
ROMAN Martinez, Latham & Watkins LLP, for amici curiae American Veterans, National Organization of Veterans’ Advocates, Inc., Paralyzed Veterans of America, Veterans of Foreign Wars of the United States, Vietnam Veterans of America. Also represented by GREGORY B. IN DEN
BERKEN.
Before REYNA, SCHALL, and WALLACH, Circuit Judges.
Opinion for the court filed by Circuit Judge SCHALL.
Dissenting opinion filed by Circuit Judge REYNA.
SCHALL, Circuit Judge.
INTRODUCTION AND DECISION
In Kisor v. Shulkin, 869 F.3d 1360 (Fed. Cir. 2017) (“Kisor I”), we affirmed the decision of the United States Court
of Appeals for Veterans Claims (“Veterans Court”) in Kisor
v. McDonald, No. 14-2811, 2016 WL 337517 (Vet. App. Jan.
27, 2016) (“Veterans Court Decision”). In that decision, the
Veterans Court affirmed the April 29, 2014 decision of the
Board of Veterans’ Appeals (“Board”) that denied Mr. Kisor
an effective date earlier than June 5, 2006, for the grant of
service connection for his post-traumatic stress disorder
(“PTSD”). Id. at *1.
In its decision, the Board held that Mr. Kisor was not
entitled to an earlier effective date under 38 C.F.R.

3a
§ 3.156(c)(1). J.A. 78–91. That regulation states that the
Department of Veterans Affairs (“VA”) will reconsider a
claim after a final decision if it receives “relevant official
service department records that existed and had not been
associated with the claims file when VA first decided the
claim.” 38 C.F.R. § 3.156(c)(1). The regulation further
states that “[a]n award made based all or in part on the
records identified by [§ 3.156(c)(1)] is effective on the date
entitlement arose or the date VA received the previously
decided claim, whichever is later.” Id. § 3.156(c)(3).
In Mr. Kisor’s case, the Board concluded that two service department records, which were received in 2006 and
2007, were not “relevant” under the regulation because
they did not pertain to the basis of the 1983 denial of Mr.
Kisor’s claim, which was the lack of a diagnosis of PTSD.
J.A. 85, 89, 90. Rather, they pertained to whether Mr. Kisor
was in combat in “Operation Harvest Moon,” a military operation in Vietnam in 1965. In that regard, when it denied
Mr. Kisor’s claim, the VA Regional Office (“RO”) had before
it a VA psychiatric examiner’s report that recited Mr. Kisor’s account of his participation in Operation Harvest
Moon, see J.A. 19–20, and the RO did not dispute that account. The Board reasoned that the documents would not
have changed the “outcome” of the VA’s 1983 decision,
which was based on the lack of “a diagnosis of PTSD,” because they bore on a matter relating to entitlement to service connection for PTSD that was not in dispute: the presence of an in-service stressor. Id. at 90–91. The Board thus
denied Mr. Kisor an effective date earlier than June 5,
2006, for a grant of service connection for his PTSD. J.A.
91. June 5, 2006 was the date Mr. Kisor submitted a request to reopen his claim, which the VA granted. J.A. 34.
Pursuant to 38 U.S.C. § 5110(a) and 38 C.F.R. § 3.400(q)–
(r), as in effect in 2014, the effective date of the grant of
service connection for Mr. Kisor’s reopened claim was the
date he submitted his request to reopen.

4a
In our prior decision, we held that the Board had not
erred in construing the term “relevant” as it appears in
§ 3.156(c)(1). In reaching that holding, we concluded that
the term “relevant” was ambiguous and had more than one
reasonable meaning. Kisor I, 869 F.3d at 1367–68. We
therefore deferred, under Auer v. Robbins, 519 U.S. 452,
461 (1997), to the Board’s interpretation of the term, which
we found to be reasonable. Kisor I, 869 F.3d at 1367–69.
The case is now before us again on remand from the Supreme Court. See Kisor v. Wilkie, 139 S. Ct. 2400 (2019)
(“Kisor II”). In Kisor II, the Court held that, in Kisor I, we
were too quick to extend Auer deference to the Board’s interpretation of “relevant” as it appears in § 3.156(c)(1). The
Court therefore vacated our decision and remanded the
case to us with the instruction that we decide whether Auer
deference “applies to the agency interpretation at issue.”
139 S. Ct. at 2408. The Supreme Court stated that “[f]irst
and foremost, a court should not afford Auer deference unless the regulation is genuinely ambiguous.” Id. at 2415.
The Court directed us on remand “to determine, based on
indicia like text, structure, history, and purpose, whether
the regulation really has more than one reasonable meaning.” Id. at 2424.
For the reasons stated below, we now conclude that, in
the setting of § 3.156(c)(1), the term “relevant” is not “genuinely ambiguous.” Id. at 2415. Accordingly, Auer deference is not appropriate in this case. In our view, in the context of § 3.156(c)(1), the term “relevant” has only “one reasonable meaning,” the meaning the Board attributed to it.
As the Board determined, and as we explain, under the regulation, in order to be “relevant,” a record must speak to a
matter in issue, in other words, a matter in dispute. We
therefore once again affirm the decision of the Veterans
Court that affirmed the decision of the Board denying Mr.

5a
Kisor entitlement under § 3.156(c)(1) to an effective date
earlier than June 5, 2006, for his PTSD.
BACKGROUND
I.
The pertinent facts are as follows: Mr. Kisor served on
active duty in the Marine Corps from 1962 to 1966. Veterans Court Decision, 2016 WL 337517, at *1. In December
of 1982, he filed an initial claim for disability compensation
benefits for PTSD with the VA RO in Portland, Oregon. Id.
Subsequently, in connection with the claim, the RO received a February 1983 letter from David E. Collier, a counselor at the Portland Vet Center. J.A. 17. In his letter, Mr.
Collier stated: “[I]nvolvement in group and individual
counseling identified . . . concerns that Mr. Kisor had towards depression, suicidal thoughts, and social withdraw[a]l. This symptomatic pattern has been associated
with the diagnosis of Post-Traumatic Stress Disorder.” Id.
In March of 1983, the RO obtained a psychiatric examination for Mr. Kisor. In his report, the examiner noted
that Mr. Kisor had served in Vietnam. The examiner also
noted that Mr. Kisor recounted that he had participated in
Operation Harvest Moon; that he was on a search operation when his company came under attack; that he reported several contacts with snipers and occasional mortar
rounds fired into his base of operation; and that he “was
involved in one major ambush which resulted in 13 deaths
in a large company.” J.A. 19–20. The examiner did not diagnose Mr. Kisor as suffering from PTSD, however. Rather, it was the examiner’s “distinct impression” that Mr.
Kisor suffered from “a personality disorder as opposed to
PTSD.” Id. at 21. The examiner diagnosed Mr. Kisor with
intermittent explosive disorder and atypical personality
disorder. Id. Such conditions cannot be a basis for service

6a
connection. See 38 C.F.R. § 4.127. Given the lack of a current diagnosis of PTSD, the RO denied Mr. Kisor’s claim in
May of 1983. J.A. 23. The RO decision became final after
Mr. Kisor initiated, but then failed to perfect, an appeal.
Veterans Court Decision, 2016 WL 337517, at *1.
II.
On June 5, 2006, Mr. Kisor submitted a request to reopen his previously denied claim for service connection for
PTSD. J.A. 25. While his request was pending, he presented evidence to the RO. This evidence included a July
20, 2007 report of a psychiatric evaluation diagnosing
PTSD, as well as a copy of the February 1983 letter from
the Portland Vet Center. See J.A. 17, 100–11. The evidence
also included service personnel records that had not been
before the RO in 1983. These records included a copy of Mr.
Kisor’s Department of Defense Form 214 (subsequently
corrected in 2007 to note, inter alia, a Combat Action Ribbon); and a Combat History, Expeditions, and Awards Record documenting his participation in Operation Harvest
Moon. See J.A. 27–29. The RO also located an additional
record it did not consider in 1983: a daily log from Mr. Kisor’s unit, the 2nd Battalion, 7th Marines. J.A. 30–31. In
June of 2007, the RO made a Formal Finding of Information Required to Document the Claimed Stressor. This
was based on Mr. Kisor’s statements; on his service medical records (which verified his service in Vietnam with the
2nd Battalion, 7th Marines); and on the daily log from his
battalion, which detailed the combat events Mr. Kisor had
previously described in connection with his claim. J.A. 30–
31. In September of 2007, a VA examiner diagnosed Mr.
Kisor with PTSD. J.A. 115.
In due course, the RO issued a rating decision reopening
Mr. Kisor’s previously denied claim. The decision granted
Mr. Kisor service connection for PTSD and assigned a 50

7a
percent disability rating, effective June 5, 2006. Veterans
Court Decision, 2016 WL 337517, at *1. According to the
decision, the rating was based upon evidence that included
the July 2007 psychiatric evaluation report diagnosing
PTSD, the September 2007 VA examination, and the Formal Finding of Information Required to Document the
Claimed Stressor. J.A. 32–33. The RO explained that service connection was warranted because the VA examination showed that Mr. Kisor was diagnosed with PTSD due
to experiences that occurred in Vietnam and because the
record showed that he was “a combat veteran (Combat Action Ribbon recipient).” J.A. 33.
In November of 2007, Mr. Kisor filed a Notice of Disagreement. In it, he challenged both the 50 percent disability rating and the effective date assigned by the RO. Veterans Court Decision, 2016 WL 337517, at *1. Subsequently,
in March of 2009, the RO issued a decision increasing Mr.
Kisor’s schedular rating to 70 percent. In addition, the RO
granted Mr. Kisor an extraschedular entitlement to individual unemployability, effective June 5, 2006. J.A. 41–45.
In January of 2010, the RO issued a Statement of the Case
denying entitlement to an earlier effective date for the
grant of service connection for PTSD. See J.A. 53–65.
III.
Mr. Kisor appealed to the Board. Although not raised
by Mr. Kisor, the Board considered whether the records
Mr. Kisor submitted in connection with his June 5, 2006
request to reopen and the additional record located by the
RO warranted reconsideration of his claim under 38 C.F.R.
§ 3.156(c)(1). If it did, then Mr. Kisor would be eligible for
an effective date for his disability benefits of December of
1982, “the date VA received the previously decided claim.”
38 C.F.R. § 3.156(c)(3).

8a
After reviewing the evidence, the Board denied Mr. Kisor entitlement to an effective date earlier than June 5,
2006. J.A. 91. The Board found that the VA did receive service department records documenting Mr. Kisor’s participation in Operation Harvest Moon after the May 1983 rating decision. J.A. 89–90. As noted above, the Board concluded, though, that the records were not “relevant” for
purposes of § 3.156(c)(1). J.A. 90. The Board explained that
the 1983 rating decision denied service connection because
there was no diagnosis of PTSD, and because service connection can be granted only if there is a current disability.
Id. (citing Brammer v. Derwinski, 3 Vet. App. 223 (1992)).
The Board stated that “relevant evidence, whether service
department records or otherwise, received after the rating
decision would suggest or better yet establish that the Veteran has PTSD as a current disability.” Id. The Board
noted that Mr. Kisor’s “service personnel records and the
daily [Battalion] log skip this antecedent to address the
next service connection requirement of a traumatic event
during service.” Id. Finally, the Board concluded with the
observation that the records at issue were not “outcome determinative” and “not relevant to the decision in May 1983
because the basis of the denial was that a diagnosis of
PTSD was not warranted, not a dispute as to whether or
not the Veteran engaged in combat with the enemy during
service.” J.A. 90–91.
DISCUSSION
I.
As noted, this case is before us on remand from the Supreme Court. On remand, we asked the parties to provide
us with their views as to how we should proceed in view of
the Court’s decision in Kisor II. In response, both Mr. Kisor
and the government take the position that the term “rele-

9a
vant,” as it appears in 38 C.F.R. § 3.156(c), is not “genuinely ambiguous” and that therefore Auer deference is not
appropriate. See Appellant’s Suppl. Br. 4 (“In this case, the
term ‘relevant’ as used by the Secretary in 38 C.F.R.
§ 3.156(c) is not ‘genuinely ambiguous.’”); Appellee’s Suppl.
Br. 4 (“A thorough examination of the text, purpose, structure, and history of 38 C.F.R. § 3.156(c) demonstrates that
our reading of ‘relevant’ in that subsection is the only reasonable reading of the regulation.”).
Mr. Kisor’s view is that the only reasonable reading of
the regulation is that a service department record is “relevant” if it has “any tendency to make the existence of any
fact that is of consequence to the determination of the action more probable or less probable than it would be without the evidence.” Appellant’s Suppl. Br. 9–10 (quoting
Counts v. Brown, 6 Vet. App. 473, 476 (1994)). In other
words, Mr. Kisor reasons that a service record is “relevant”
if it constitutes evidence probative of any fact necessary to
substantiate a veteran’s claim, even if the matter to which
the record speaks is not in dispute. The government’s view
is that the only reasonable reading of the term “relevant”
in § 3.156(c) is that, in order to be relevant, a record must
“address a dispositive issue and therefore . . . affect the outcome of the proceeding.” Appellee’s Suppl. Br. 14. The government reasons that, in order for a record to affect the
outcome of the proceeding it “must speak to the basis for
the VA’s prior decision.” Id. at 16. That was not the case
here because the basis for the VA’s prior decision was the
absence of a diagnosis of PTSD, not the absence of an inservice stressor (participation in combat). Thus, while the
parties both take the position that “relevant,” as it appears
in the regulation, is not genuinely ambiguous, they advocate different meanings for the term.
As explained below, we too conclude that the term “relevant” in § 3.156(c) is not genuinely ambiguous. At the

10a
same time, we agree with the government that, in the context of the regulation, the term has only one reasonable
meaning. To be relevant, a record must be relevant to the
issue that was dispositive against the veteran in the VA
adjudication of the claim sought to be reconsidered and, in
that way, bear on the outcome of the case. That is how we
understand the Board’s determination that the record
must speak to a matter in issue, in other words, a matter
in dispute. In this case, in 1983 the VA denied Mr. Kisor’s
claim for service connection for PTSD because he had not
been diagnosed with PTSD, not because of the absence of
an in-service stressor. Indeed, in this case, the presence of
an in-service stressor has never been disputed. As the Supreme Court pointed out, “[t]he report of the agency’s evaluating psychiatrist noted [Mr.] Kisor’s involvement in . . .
battle” during Operation Harvest Moon. Kisor II, 139 S. Ct.
at 2409. Mr. Kisor has not made any showing that the service records at issue were relevant, even indirectly, to undermining the basis for the RO’s 1983 rejection of his claim
that he was suffering from PTSD, a rejection that did not
question Mr. Kisor’s experiences in the service. For this
reason, we again affirm the decision of the Veterans Court
that affirmed the decision of the Board denying Mr. Kisor
an effective date earlier than June 5, 2006, for service connection for his PTSD.
II.
Establishing service connection for a PTSD claim requires (1) a medical diagnosis of PTSD; (2) “a link, established by medical evidence, between [the] current symptoms and an in-service stressor”; and (3) “credible supporting evidence that the claimed in-service stressor occurred.”
AZ v. Shinseki, 731 F.3d 1303, 1310 (Fed. Cir. 2013) (quoting 38 C.F.R. § 3.304(f)).

11a
A veteran can seek to revise a Board denial of a claim
for disability benefits through different procedures. First,
Board decisions are subject to review to determine whether
a clear and unmistakable error exists under 38 U.S.C.
§§ 7111, 5109A, and 38 C.F.R. § 20.1400. Second, before
amendments promulgated in 2019, a claimant could reopen
a claim by submitting “new and material evidence” under
former 38 U.S.C. § 5108 and 38 C.F.R. § 3.156. See Garcia
v. Wilkie, 908 F.3d 728, 732–33 (Fed. Cir. 2018) (citing Cook
v. Principi, 318 F.3d 1334, 1337 (Fed. Cir. 2002) (en banc)).
As noted, in 2006, Mr. Kisor sought to reopen his claim for
PTSD. Benefits awarded pursuant to a reopened claim under the former statutory and regulatory framework were
granted an effective date no earlier than the date of the request for reopening. 38 U.S.C. § 5110 (2012), 38 C.F.R.
§ 3.400(q)–(r) (2006); see also Sears v. Principi, 349 F.3d
1326, 1331 (Fed. Cir. 2003).1

1

Under the Veterans Appeals Improvement and Modernization Act of 2017, Pub. L. 115-55 (“Modernization Act”),
veterans may now file “supplemental claims” based on
“new and relevant” evidence. 38 U.S.C. § 5108 (2019); 38
C.F.R. §§ 3.156(d), 3.2501 (2019). Section 3.2501 defines
“relevant evidence” as “information that tends to prove or
disprove a matter at issue in a claim [and] includes evidence that raises a theory of entitlement that was not previously addressed.” 38 C.F.R. § 3.2501. The comments accompanying the proposed rule explained that the definition
of “relevant evidence” came from 38 U.S.C. § 101(35). VA
Claims and Appeals Modernization, 83 Fed. Reg. 39,818,
39,822 (proposed Aug. 10, 2018). The comments accompanying the final rule explain that the “new and relevant”
standard for supplemental claims is “a lesser standard and
reduces the claimant’s burden” as compared to the prior
“new and material” standard. VA Claims and Appeals Modernization, 84 Fed. Reg. 138, 144 (Jan. 18, 2019) (codified

12a
For claims based upon “new and material evidence”
filed before 2019, such as Mr. Kisor’s, 38 C.F.R. § 3.156(a)
defined “new evidence” as “existing evidence not previously
submitted to agency decisionmakers.” “Material” evidence
was defined under the same subsection as “existing evidence that, by itself or when considered with previous evidence of record, relates to an unestablished fact necessary
to substantiate the claim.” The regulation goes on to explain that “[n]ew and material evidence can be neither cumulative nor redundant of the evidence of record at the
time of the last prior final denial of the claim sought to be
reopened, and must raise a reasonable possibility of substantiating the claim.” 38 C.F.R. § 3.156(a).
Third, a veteran may seek to have the VA reconsider a
previously-denied claim under 38 C.F.R. § 3.156(c)(1).2 Section 3.156(c)(1) reads today as it did in 2006 and in 2014
when the Board considered Mr. Kisor’s case. As noted
above, the regulation states that the VA will reconsider a
claim after a final decision if it receives “relevant official
service department records that existed and had not been
associated with the claims file when VA first decided the
claim.” 38 C.F.R. § 3.156(c)(1).3 The regulation further

at 38 C.F.R. pts. 3, 8, 14, 19, 20, and 21). The earliest effective date for an award of disability benefits pursuant to a
supplemental claim is the date the supplemental claim was
filed. 38 U.S.C. § 5110 (2019); 38 C.F.R. §§ 3.400,
3.2500(h)(2) (2019).
2
In this case, Mr. Kisor did not explicitly seek reconsideration, but the Board considered reconsideration under
§ 3.156(c) when it addressed his request for an earlier effective date for service connection for PTSD. J.A. 88.
3
Recently, in Jones v. Wilkie, we addressed a claim under
§ 3.156(c)(1). However, in that case, the government did

13a
states that “[a]n award made based all or in part on the
records identified by [§ 3.156(c)(1)] is effective on the date
entitlement arose or the date VA received the previously
decided claim, whichever is later.” 38 C.F.R. § 3.156(c)(3).
“In other words, § 3.156(c) serves to place a veteran in the
position he would have been had the VA considered the relevant service department record before the disposition of
his earlier claim.” Blubaugh v. McDonald, 773 F.3d 1310,
1313 (Fed. Cir. 2014).
Unlike the “new” and “material” terms defined in
§ 3.156(a), § 3.156(c) does not provide a definition for the
term “relevant.” However, the context of § 3.156(c) makes
clear that, in order to be “relevant” for purposes of reconsideration, additional records must speak to the basis for
the VA’s prior decision. Specifically, the effective date for
an award under § 3.156(c) is retroactive to the “date entitlement arose or the date VA received the previously decided claim” only if the award is “based all or in part on”
the newly identified records. § 3.156(c)(3). Duplicative records and records directed to an undisputed fact would not
speak to the basis for the VA’s prior decision; a claimant
filing such records thus could not obtain an award “based
all or in part on” the newly identified records. In this case,
Mr. Kisor has not shown that the records at issue spoke,
directly or indirectly, to the basis for the VA’s prior decision: the absence of a diagnosis of PTSD.
Moreover, in the context of veteran’s benefits, we have
explained that “relevant” evidence is evidence that “must
tend to prove or disprove a material fact.” AZ, 731 F.3d at
1311; see also Black’s Law Dictionary (10th ed. 2014) (defining “relevant” as “[l]ogically connected and tending to
not dispute that the newly associated records were “relevant” and that reconsideration was required. 964 F.3d
1374, 1379 n.5 (Fed. Cir. 2020).

14a
prove or disprove a matter in issue”). Similarly, the VA’s
duty to assist claimants under 38 U.S.C. § 5103A mandates
that the VA make reasonable efforts to obtain “relevant”
records, but this does not encompass the situation in which
“no reasonable possibility exists that such assistance would
aid in substantiating the claim.” 38 U.S.C. § 5103A(a)(2);
see Golz v. Shinseki, 590 F.3d 1317, 1321 (Fed. Cir. 2010)
(“Relevant records for the purpose of [38 U.S.C.] § 5103A
are those records that relate to the injury for which the
claimant is seeking benefits and have a reasonable possibility of helping to substantiate the veteran’s claim.”). Conversely, evidence that “simply does not tend to prove a fact
that is of consequence to the action[] . . . is not relevant.”
AZ, 731 F.3d at 1311 (quoting 2 Jack B. Weinstein & Margaret A. Berger, Weinstein’s Federal Evidence § 401.07 (2d
ed. 2012)).4
Mr. Kisor’s original claim was denied in 1983 because
he had no diagnosis of PTSD, not because of any dispute as
to whether he had suffered an in-service stressor. J.A. 23.
The Rating Decision acknowledges consideration of the VA
psychiatric examiner’s evaluation. Id. In the evaluation,
the examiner detailed Mr. Kisor’s recounting of his participation in Operation Harvest Moon, noting “it . . . appear[ed] that [Mr. Kisor] was involved in one major ambush which resulted in 13 deaths.” Id. at 19–20. The examiner concluded, however, that it was his “distinct impression that this man suffers from a personality disorder as
opposed to PTSD.” Id. at 21. It was on this lack of a PTSD
4

This understanding of “relevant” is also consistent with
the definition for that term in connection with “supplemental claims” under the Modernization Act noted above.
38 C.F.R. § 3.2501 (“Relevant evidence is information that
tends to prove or disprove a matter at issue in a claim [and]
includes evidence that raises a theory of entitlement that
was not previously addressed.”).

15a
diagnosis that the Board relied when it concluded that
PTSD was “not shown by evidence of record.” Id. at 23.
As noted, the additional service records at issue here
are Mr. Kisor’s service personnel records, including his
Form 214, corrected to add a Combat Action Ribbon; and
his Combat History, Expeditions, and Awards Record noting his participation in Operation Harvest Moon. The additional service records also include the daily log of his battalion in Vietnam that confirmed Mr. Kisor’s description of
the ambush during Operation Harvest Moon. Although
they provide further support for Mr. Kisor’s prior statements that he participated in Operation Harvest Moon and
indeed could provide “credible supporting evidence that the
claimed in-service stressor occurred,” see AZ, 731 F.3d at
1310, Mr. Kisor has presented no substantial argument
that these additional service records helped to show that
he had a medical diagnosis of PTSD as of 1983.
The Board’s decision that Mr. Kisor’s records were not
“relevant” is also consistent with our holding in Blubaugh,
773 F.3d at 1314. In Blubaugh, we held that § 3.156(c) did
not apply when a newly discovered service record “did not
remedy [the] defects” of a prior decision and contained facts
that “were never in question.” Id. Indeed, we held that
“[s]ection 3.156(c) only applies ‘when VA receives official
service department records that were unavailable at the
time that VA previously decided a claim for benefits and
those records lead VA to award a benefit that was not
granted in the previous decision.’” Id. (quoting New and
Material Evidence, 70 Fed. Reg. at 35,388 (proposed June
20, 2005)).
We therefore conclude that the Board did not err in
holding that the records cited by Mr. Kisor were not “relevant” because they did not pertain to the basis of the 1983
denial, the lack of a diagnosis of PTSD. The records added

16a
nothing to the case because Mr. Kisor has not shown that
they bore, directly or indirectly, on any matter relating to
entitlement to service connection for PTSD, other than a
matter that was not in dispute: the presence of an in-service stressor.
III.
As noted, Mr. Kisor argues that a service department
record is “relevant” under 38 C.F.R. § 3.156(c) if it has any
tendency to make the existence of any fact that is of consequence to the determination of the action more probable or
less probable than it would be without the evidence. This
view, however, is squarely contrary to what we have just
explained is the correct reading of the regulation. We therefore reject it.
Mr. Kisor makes two additional arguments. First, he
contends that his reading of the regulation is supported by
the fact that § 3.156(c) is intended to be remedial in nature.
According to Mr. Kisor, the regulation was promulgated “to
address what occurs when VA fails to obtain all relevant
service department records before adjudicating [a] claim in
the first instance.” Appellant’s Suppl. Br. 11. Since the regulation is remedial, Mr. Kisor argues, the term “relevant”
should be construed broadly in a manner consistent with
the interpretation above that he urges. Id. at 13–15.
We disagree. Although broad, the VA’s duty to assist is
not without limits. Under 38 U.S.C. § 5103A(a)(2), “[t]he
Secretary is not required to provide assistance to a claimant under this section if no reasonable possibility exists that
such assistance would aid in substantiating the claim.”
(Emphasis added). Thus, to the extent the VA’s duty to assist encompasses evidence necessary, but not sufficient, to
substantiate a veteran’s claim, the duty does not extend to
the situation where, like here, the evidence provides no

17a
reasonable possibility that the claim could be substantiated because the evidence does not establish a missing
claim element.
Finally, Mr. Kisor argues that we should resort to the
“pro-veteran canon” of construction, see, e.g., Brown v.
Gardner, 513 U.S. 115, 117–18 (1994), and thereby arrive
at the reading of the term “relevant” in § 3.156(c) that he
urges. Appellants’ Suppl. Br. 16–18. Under Brown, however, the canon does not apply unless “interpretive doubt”
is present. 513 U.S. at 117–18. That precondition is not satisfied where a sole reasonable meaning is identified
through the use of ordinary textual analysis tools, before
consideration of the pro-veteran canon. Having conducted
such an analysis in this case, we have no remaining interpretive doubt. Cf. Connecticut Nat’l Bank v. Germain, 503
U.S. 249, 253–54 (1992) (unambiguous result based on language analysis governs over canons). The canon therefore
does not apply here.
In this case, both Mr. Kisor and the government take
the position that the term “relevant” in § 3.156(c) is not
“genuinely ambiguous.” We agree with that position and
hold today that the term has only “one reasonable meaning.” That is the meaning adopted by the Board when it
denied Mr. Kisor an effective date earlier than June 5, 2006
for service connection for his PTSD.
We have considered Mr. Kisor’s other arguments and
have found them to be without merit.
CONCLUSION
For the foregoing reasons, we conclude the term “relevant” has only one reasonable meaning in the context of
§ 3.156(c)(1): the “relevant” service records must, in the
sense we have explained, speak to a matter in issue, in
other words, a matter in dispute. Accordingly, we affirm

18a
the decision of the Veterans Court that affirmed the decision of the Board denying Mr. Kisor an effective date earlier than June 5, 2006 for service connection for his PTSD.
AFFIRMED
COSTS
No costs.

19a

UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
JAMES L. KISOR,
Claimant-Appellant
v.
DENIS MCDONOUGH, SECRETARY OF
VETERANS AFFAIRS,
Respondent-Appellee
2016-1929
Appeal from the United States Court of Appeals for Veterans Claims in No. 14-2811, Senior Judge Alan G. Lance,
Sr.
REYNA, Circuit Judge, dissenting.
This appeal is on remand from the U.S. Supreme Court.
Three and a half years ago, this panel unanimously held
that the plain text of 38 C.F.R. § 3.156(c) was ambiguous
as to the scope of the word “relevant.” It was on that basis
that, as informed by the Supreme Court, we erroneously
applied Auer deference to what we determined was a reasonable interpretation of the regulation by the Department
of Veterans Affairs (“VA”). We did not at the time consider
a countervailing tool used to resolve ambiguities in veterans’ benefits regulations, the pro-veteran canon.
The Supreme Court vacated our decision because we
prematurely relied on an Auer analysis and remanded the

20a
case to us to reconsider our initial view of § 3.156(c) using
traditional tools of construction.
But on remand, the VA made a hard U-turn and waived
Auer altogether.1 Not to be left behind, the majority has decided to follow the VA and to adopt the agency’s new belief
that the very same text we initially declared ambiguous
has sprung a lack of “interpretive doubt.” According to the
majority, if it lacks interpretive doubt, it is unambiguously
correct. Slip Op. 9, 16–17.
I disagree with my colleagues on two principal points.
First, I disagree with my colleagues’ new position that
the “one reasonable meaning” of the word “relevant” in
§ 3.156(c) is the position that the VA adopted on remand.
Slip Op. 4, 9, 16–17. Nothing in the text of the provision
requires that to be relevant, “relevant records” must directly or indirectly “speak to the basis for the VA’s prior
decision,” address facts expressly “in dispute,” or “bear on
the outcome.” See Slip Op. 4, 9, 10, 13, 15, 17. If anything,
the majority complicates and obfuscates the meaning and
application of § 3.156(c), a key provision in VA law that is
invoked by thousands of veterans in countless VA cases. As
demonstrated in this dissent, established constructions of

1

Recording of Oral Argument at 16:10–22 (“The government is not contending that the agency’s interpretation is
entitled to deference.”); see also Transcript of Oral Argument at 64:6–20, Kisor v. Wilkie, 139 S. Ct. 2400 (2019),
http://oralarguments.cafc.uscourts.gov/default.aspx?fl=2016-1929_1142020.mp3 (conceding that
Auer deference only applies “if the determination reflects
the considered judgment of the agency as a whole” and that
“we [the government] don’t think that any individual Board
decision by the VA Board reflects the considered judgment
of the agency as a whole”).

21a
the terms “relevant records” and “material evidence” in related veterans’ benefit provisions support the conclusion
that records are “relevant” so long as they help to establish
unestablished facts that are necessary for substantiating
the veteran’s claim.
Second, I disagree with the new holding developed by
my colleagues in this remand and which asserts that “interpretive doubt” must first be established before the proveteran canon can be applied. Slip Op. 16. This is not correct.
Fundamentally, when a veterans’ benefit provision is
ambiguous on its face, the pro-veteran canon must be
weighed alongside the other traditional tools in resolving
interpretive doubt, including whether interpretative doubt
exists. Neither the Supreme Court’s decision in this case,
nor this court’s precedent, supports the majority’s assumption that interpretive doubt is to be determined before resort to the pro-veteran canon may be had. To the contrary,
the pro-veteran canon is a traditional tool of construction.
It requires that we discern the purpose of a veterans’ benefit provision in the context of the veterans’ benefit scheme
as a whole and ensure that the construction effectuates, rather than frustrates, that remedial purpose: that benefits
that by law belong to the veteran go to the veteran. For
example, in this case, by brushing aside the canon and relegating it to last resort, to only after a determination of interpretive doubt is made, the majority adopts a construction of § 3.156(c) that substantially narrows the scope of its
remedial function and thereby rends the overarching fabric
of protection woven by Congress to assist and benefit the
veteran.
Thus, Mr. Kisor, a veteran who was denied twentythree years of compensation for his service-connected disa-

22a
bility, after what was a disgracefully inadequate VA review, is denied relief by a facial interpretation of a regulation that was specifically promulgated to benefit him and
other veterans in his situation. The result will reverberate
like the thunder of a cannon from far beyond the horizon of
this case.
I dissent.
I.
When James Kisor submitted his first claim for serviceconnected post-traumatic stress disorder (“PTSD”) in 1982,
he had undergone over a year of counseling for his symptoms at the Portland Vet Center. Yet a VA examiner diagnosed him with personality disorders rather than PTSD,
and, based on that diagnosis, the VA denied his claim on a
one-page form. J.A. 23.
There is no dispute that the agency made no effort, before or after receiving the examiner’s report, to determine
whether Mr. Kisor suffered a traumatic stressor during his
service in Vietnam. This was in spite of the fact that (1) a
legal element of any PTSD claim is a verified in-service
stressor, and (2) the first clinical criterion for a medical diagnosis of PTSD (another legal element of a PTSD claim)
is the experience of an objectively distressing traumatic
event.2 There was no documentation whatsoever of combat
2

See J.A. 107 (citing the diagnostic criteria for PTSD); AM.
PSYCHIATRIC ASS’N, DIAGNOSTIC AND STATISTICAL MANUAL OF MENTAL DISORDERS, 309.81 (3d ed.
1980) (identifying the first diagnostic criterion for PTSD as
“[e]xistence of a recognizable stressor that would evoke significant symptoms of distress in almost everyone”); see
also, e.g., O’Donnell v. Shinseki, 2012 WL 1660827, at *1
(Vet. App. 2012) (“A VA medical examination . . . concluded
that he ‘does not meet DSM–IV criteria for the diagnosis of

23a
experience in Mr. Kisor’s file because the VA had never
bothered to request his personnel records from the service
department. The rating decision made no mention of his
combat status. J.A. 23.
It bears emphasizing a few neglected details of the examination that led to this rating decision against Mr. Kisor. Although the examiner’s report recounted Mr. Kisor’s
descriptions of his combat experience, it did so with palpable skepticism3 and noted that Mr. Kisor had reported “no
battle problems or traumatic experiences” to his social
worker. J.A. 18–20. At the time, Mr. Kisor’s treating counselor had considered his symptoms to be consistent with
PTSD. J.A. 21. The examiner noted he was “not impressed”
PTSD, in terms of a specific, identified stressor that meets
Criterion A, which is required for the diagnosis to be
made.’”).
3
See, e.g., J.A. 19 (“The veteran seemed to be implying that
the very exposure to potential combat and the implied danger did affect a change upon his adaptation.”) (emphasis
added); id. (“When the veteran was asked to describe combat situations he seemed very defensive and wanted to
make certain that I understood that he was always in situations of combat danger.”); id. (“[I]t would appear that he
was involved in one major ambush which resulted in 13
deaths in a large company. The veteran does not remember
how long this ambush lasted. He described the ambush in
the context of the stupidity of his commanding officer’s orders and judgment.”); J.A. 20 (“Whenever I would ask direct questions concerning the actual amount of combat activity, this subject would get lost as he would again launch
into another detailed anecdotal monologue.”); J.A. 21
(“[H]is Vietnam combat situations were couched in the
framework of his basic premise: that most people who have
attempted to boss him around had been inferior to him either intellectually or morally.”).

24a
with that diagnosis but provided no explanation of the basis for his own opinion. J.A. 21. This was because he had
“lost” the “portion of the original dictation” setting forth a
“specific review of symptoms related to the PTSD criteria”
and could not “recall the specifics.” J.A. 21–22. All he could
offer was his “impression.” Id. Despite all this, the rating
board accepted the examiner’s diagnosis and went no further with Mr. Kisor’s claim.
For the next twenty-three years, Mr. Kisor received no
disability compensation from the VA, although the symptoms of his condition continued to keep him from holding
down a job. In 2006, Mr. Kisor went to check his VA claims
file, and discovered that there were no records of his combat history. He wrote to the VA, attaching service records
documenting his combat history and Combat Action Ribbon, and demanded that the agency look again at his claim.
J.A. 28–29. The VA construed his first letter as a request
to reopen his claim based on new and material evidence,
and although nothing else about his claim had changed, the
VA this time proceeded to investigate his alleged in-service
stressor, requesting an entry from his battalion’s daily log
that documented the following attack:
battalion forward and rear elements taken under
heavy fire by mortar, recoilless rifle, and automatic
weapons. . . . VC [Viet Cong combatants] were well
camouflaged and dug into concealed positions. All
VC contacted were well armed and equipped . . . . VC
KIA [killed in action] 105.
J.A. 30–31. Based on the information in the log—information that all along had been in the government’s possession—the VA formally verified Mr. Kisor’s stressor. Id.
Mr. Kisor then obtained and submitted an evaluation
from a third-party psychiatrist, who concluded that Mr. Kisor met each of the diagnostic criteria for PTSD and had

25a
been suffering from the effects of his condition for the last
twenty-seven years. J.A. 109. In particular, the psychiatrist opined that the VA examiner in 1983 had likely “misunderstood the impact of the claimant’s war trauma upon
him,” as symptoms of PTSD were apparent from Mr. Kisor’s medical records at that time. Id. A new VA psychiatric
examination concurred with this diagnosis.4 J.A. 115–116.
This time, the new examiner accepted the presence of “combat stressors” based on records of Mr. Kisor’s combat action
ribbon, J.A. 112, and proceeded to describe his combat accounts and symptoms fully and sympathetically. The examiner also received and reviewed the other records now
in Mr. Kisor’s claims file. Id.
Based on Mr. Kisor’s new diagnosis of PTSD and his
service records, the VA found that he had established the
necessary elements of a service-connected PTSD claim and
awarded compensation for the claim. J.A. 32–33. The
agency, however, refused to treat its new review as a “reconsideration” under § 3.156(c), which would entitle him to
an effective date retroactive to his 1982 claim. The Board
of Veterans’ Appeals (“Board”) recognized that reconsideration is only triggered when the VA receives newly identified “relevant official service records.” The Board reasoned
4

There are similar instances in which a Vietnam veteran,
whose PTSD claim was initially denied based on absence of
a PTSD diagnosis, is later diagnosed with PTSD in a new
examination, and awarded benefits after the VA receives
new evidence of an in-service stressor. See, e.g., No. 13-00
404A, Bd. Vet. App. 1412187, 2014 WL 1897120, at *4
(BVA Mar. 24, 2014); No. 11-00 848, Bd. Vet. App. 1408416,
2014 WL 1417762, at *1 (BVA Feb. 27, 2014); No. 10-48888, Bd. Vet. App. 1317296, 2013 WL 3770036, at *5 (BVA
May 28, 2013). Notably, the Board found § 3.156(c) to be
applicable in each of these cases without questioning the
relevance of the newly identified stressor evidence.

26a
that the newly received combat records in Mr. Kisor’s
case—i.e., his combat expeditions form, his Combat Action
Ribbon award, and his battalion’s daily log—were not “relevant” because they did not address the “basis” of the VA’s
prior decision and did not “manifestly change” its outcome.
J.A. 90–91.
II.
In all cases, the VA has a statutory duty to assist the
veteran by fully and sympathetically developing the veteran’s claim to its optimum before deciding the claim on the
merits. McGee v. Peake, 511 F.3d 1352, 1357 (2008). The
VA bears this obligation so long as there is any “reasonable
possibility” that such assistance would “aid in substantiating the claim.” 38 U.S.C. § 5103A; Golz v. Shinseki, 590
F.3d 1317, 1323 (Fed. Cir. 2010). This includes making reasonable efforts to obtain evidence necessary to substantiate
the veteran’s claim. 38 U.S.C. § 5103A. In particular, the
VA must obtain “relevant records pertaining to the claimant’s active [military] service that are held or maintained
by a governmental entity.” 38 U.S.C. § 5103A(c)(1).
What happens when the VA fails to fulfill this duty? If,
decades after a claim is denied, the veteran uncovers service records that prove a necessary element of his claim
and should have been part of his file, will his claim be reconsidered, offering him a chance to prove entitlement dating back to his first claim? Or must he first bear the burden of showing that the missing records might have
changed the VA’s original decision? The answer turns on
the construction of the word “relevant” in the VA’s regulation, 38 C.F.R. § 3.156(c).
Section 3.156(c) provides for reconsideration of claims
previously decided without the benefit of all relevant service records. Subsection (c)(1) requires the VA to reconsider
a claim if it receives “relevant service department records”

27a
that had not been considered when it first decided the
claim:
[A]t any time after VA issues a decision on a claim,
if VA receives or associates with the claims file relevant official service department records that existed
and had not been associated with the claims file
when the VA first decided the claim, VA will reconsider the claim.
§ 3.156(c)(1). Reconsideration includes further VA assistance in developing any additional evidence needed to substantiate the claim. 38 U.S.C. § 5103A(a)(1); Vigil v. Peake,
22 Vet. App. 63, 67 (2008). If, after reconsideration of the
claim, “an award [is] made based all or in part” on these
records, then the award is effective as far back as the effective date of the previously decided claim, depending on
when entitlement arose, as determined through a retroactive assessment of disability. § 3.156(c)(3), (c)(4).
The plain text of § 3.156(c)(1) does not specify whether
the “relevant” records that trigger reconsideration must
“cast[] doubt on the agency’s prior rating decision” or only
“relat[e] to the veteran’s claim more broadly.” Kisor v.
Shulkin, 869 F.3d 1360, 1367 (Fed. Cir. 2017) (“Kisor I”).
However, the history and text of § 3.156(c) make clear that
reconsideration serves the dual remedial purpose of (1)
providing a fair claim review based on a fully developed
record to veterans who had been denied such a review before and (2) compensating such veterans for any benefits to
which they can now prove they should have been entitled.
We have noted that “§ 3.156(c) serves to place a veteran in
the position he would have been had the VA considered the
relevant service department record before the disposition
of his earlier claim.” Blubaugh v. McDonald, 773 F.3d
1310, 1313 (Fed. Cir. 2014). That includes affording him

28a
both his procedural right to a complete review and his substantive right to full compensation.
In light of the ambiguity in § 3.156(c) and the regulation’s remedial purpose, consistent with the Supreme
Court’s instructions on remand, I look to the provision’s
context and history for a construction of “relevant” that
best effectuates the purpose of reconsideration. I turn first
to our construction of “relevant records” in the context of
the VA’s duty to assist veterans. I then look to the historical scope of the “new and material evidence” standard for
the reopening of claims, which served as the original standard for reconsideration under § 3.156(c). Both sources point
to the conclusion that “relevant . . . records” need only address a necessary and unestablished element of the claim
as a whole, not directly or indirectly “speak to the basis for
the VA’s prior decision,” address facts expressly “in dispute,” or “bear on the outcome.”
A. “Relevant Records” and the Duty to Assist
As discussed, 38 U.S.C. § 5103A requires the VA to assist a claimant in obtaining “evidence necessary to substantiate the claimant’s claim,” including obtaining “relevant records” of the claimant’s military service, so long as
there exists any “reasonable possibility that such assistance would aid in substantiating the claim.” 38 U.S.C.
§§ 5103A(a)(1)–(a)(2), 5103A(c)(1)(A) (emphasis added).
There is no dispute that “relevant” records for purposes of
reconsideration should be construed consistently with the
meaning of “relevant records” under § 5103A.
In interpreting § 5103A, this court has defined “relevant records” as “those records that relate to the injury for
which the claimant is seeking benefits and have a reasonable possibility of helping to substantiate the veteran’s
claim.” Golz v. Shinseki, 590 F.3d 1317, 1321 (Fed. Cir.
2010). When determining the scope of “relevant records” for

29a
a given claim, we look to the elements necessary to substantiate it. See id. at 1322. In particular, when a veteran
seeks compensation for service-connected PTSD, we have
held that the “records relevant to his claim are those relating to a medical diagnosis of PTSD, evidence corroborating
claimed in-service stressors, or medical evidence establishing a link between any in-service stressor and a PTSD diagnosis.” Id.
We have also made clear that the VA’s obligation to obtain relevant records does not depend on whether the records would likely be “dispositive” of the claim. McGee, 511
F.3d at 1358 (“The statute [§ 5103A] simply does not excuse
the VA’s obligation to fully develop the facts of [the veteran’s] claim based on speculation as to the dispositive nature of relevant records.”). We have held that relevant records need not “independently prove” the veteran’s claim.
Jones v. Wilkie, 918 F.3d 922, 926 (Fed. Cir. 2019).
The scope of the VA’s duty to assist thus supports the
conclusion that “relevant” records are those that help to establish a necessary element of a veteran’s claim, regardless
of whether the evidence is relevant to an issue that would
be dispositive of the outcome. By this standard, Mr. Kisor’s
combat records are relevant at least because they corroborate his in-service stressor, a necessary element of a PTSD
claim that had not been established when the VA first decided his claim. 38 C.F.R. § 3.304(f); AZ v. Shinseki, 731
F.3d 1303, 1310 (Fed. Cir. 2013).
To be clear, § 5103A is not the origin of the VA’s authority to promulgate § 3.156(c).5 Rather, § 5103A is relevant to

5

The VA’s authority to promulgate § 3.156(c) originates in
38 U.S.C. § 501. See 70 Fed. Reg. 35,388, 35,390 (June 20,
2005); see also 71 Fed. Reg. 52,455, 52,457 (Sept. 6, 2006).

30a
this discussion insofar as it provides guidance as to how to
interpret the statute in question.
B. “New and Material Evidence”
Up until 2019, all of 38 C.F.R. § 3.156 fell under the
heading “New and Material Evidence.” As originally enacted, the provision provided for (1) reopening of previously
decided claims based on “new and material evidence” and
(2) reconsider[ation] of previously decided claims based on
new and material evidence that consisted of official records
from the service department. See § 3.156, New and Material Evidence, 27 Fed. Reg. 11887 (Dec. 1, 1962) (emphasis
added). The distinction between the two procedures was
that reconsideration provided the veteran an opportunity
to prove and receive retroactive entitlement to benefits,
whereas reopening only entitled veterans to the effective
date of the request to reopen.
Effective 2006, the VA amended the language in
§ 3.156(c) to delete the reference to “new and material evidence,” and replace it with the current phrase “relevant official service records.” In proposing the change, the VA
stated that the change was intended to eliminate any confusion as to whether awards made upon reconsideration
would be subject to the same effective date as awards made
upon reopening. New and Material Evidence, 70 Fed. Reg.
35388, 35388-89 (Jun. 20, 2005). The VA was thus clear
that the new “relevant . . . records” language was not intended to impose a higher threshold for triggering reconsideration than before. It follows that records are “relevant” under § 3.156(c)(1) if they would satisfy the definition
of “material evidence” for purposes of reopening a claim.6

6

This is consistent with the VA’s definition for “new and
relevant evidence” for purposes of re-adjudicating “supplemental claims” under the recently enacted § 3.156(d). The

31a
This is critical because the standard for “material evidence” has always been forward-looking toward the claim
to be substantiated, not backward-looking toward the prior
VA decision. Since 2001, the VA has defined “material” evidence as “evidence that, by itself or when considered with
previous evidence of record, relates to an unestablished
fact necessary to substantiate the claim.” § 3.156(a) (emphasis added); see also § 3.156, Duty to Assist, 66 Fed. Reg.
45620, 45630 (Aug. 29, 2001). Historically, when the VA
promulgated its first binding definition of materiality in
1990, it stated that “it has always been VA’s position that
evidence may be new and material even though it does not
warrant revision of a previous decision.” New and Material
Evidence, 55 Fed. Reg. 52274 (Dec. 21, 1990) (emphasis
added).
Accordingly, in Hodge v. West, we rejected the Veterans
Court’s requirement that a claimant seeking reopening establish “a reasonable possibility that the new evidence,
when viewed in the context of all the evidence, both new
and old, would change the outcome.” 155 F.3d 1356, 1363
(Fed. Cir. 1998) (citing Colvin v. Derwinski, 1 Vet App. 171,
174 (1991)) (emphasis added). We concluded that an outcome determinacy requirement for reopening, even under
an attenuated “reasonable possibility” threshold, was “inconsistent with the general character of the underlying
statutory scheme for awarding veterans’ benefits.” Id. at
1362. We reasoned that the availability of review based on
new evidence reflects “the importance of a complete record
for evaluation of a veteran’s claim” that considers “all potentially relevant evidence.” Id. at 1363. We recognized
that “so much of the evidence regarding the veterans’

definition provides that “[t]he new and relevant evidence”
standard is no higher than the “new and material evidence” standard under § 3.156(a).

32a
claims for service connection and compensation is circumstantial at best,” and in this context, new evidence may
“contribute to a more complete picture of the circumstances
surrounding the origin of a veteran’s injury or disability,”
and warrant another look at the claim, even if it does not
demonstrably change the right outcome. Id. Moreover, both
the reopening and reconsideration of a claim entitles the
veteran to receive additional assistance from the VA, such
as new medical examinations and requests for additional
records. See Paralyzed Veterans of Am. v. Sec’y of Veterans
Affs., 345 F.3d 1334, 1339, 1343 (Fed. Cir. 2003); Vigil v.
Peake, 22 Vet. App. 63, 67 (2008). The provisions thus contemplate that a claim that is not fully substantiated based
on the new evidence alone may be substantiated after further factual development.
The VA adhered to these principles when it adopted the
current definition of materiality in 2001. In particular, the
VA withdrew as “too restrictive” a proposal that would
have defined “material evidence” as “evidence that relates
specifically to the reason why the claim was last denied.”
Duty to Assist, 66 Fed. Reg. at 45629 (final rule) (emphasis
added); cf. Duty to Assist, 66 Fed. Reg. 17834, 17838–89
(Apr. 4, 2001) (proposed rule). In its place, the VA promulgated the current definition of materiality that focuses on
the “unestablished fact[s] necessary to substantiate the
claim.” Duty to Assist, 66 Fed. Reg. at 45629 (emphasis
added).7

7

The same amendment also added the requirement that
new and material evidence must “raise a reasonable possibility of substantiating the claim.” Duty to Assist, 66 Fed.
Reg. at 45629. The VA clarified that this language required
only that “there be a reasonable possibility that VA assistance would help substantiate the claim,” in accordance
with the threshold for the VA’s duty to assist. Id. (emphasis

33a
If the VA now intends to condition reconsideration on
records that relate to the basis of the prior decision or
change its outcome, it must do so through notice and comment. The agency cannot urge us to read those requirements into the word “relevant” when they have repeatedly
refused to incorporate them into the criteria for reopening
and reconsideration in promulgating prior versions of the
regulation. The history and context of § 3.156 thus make
clear that records relating to unestablished facts necessary
to substantiate the veteran’s claim are sufficient to trigger
reconsideration under subsection (c).
***
Viewed as a whole, the context, history, and purpose of
reconsideration support a construction of “relevant” that
entitles Mr. Kisor to relief: that service records are “relevant” when they help to establish an unestablished fact
necessary to substantiate a veteran’s claim. Moreover, this
reading of § 3.156(c) accords with the pro-veteran canon because it most effectuates the provision’s remedial purpose
of (1) ensuring that veterans whose claims were denied
without the benefit of full VA assistance receive the full review and assistance they were owed; and (2) compensating
veterans for any past benefits to which they can prove they
should have been entitled.
III.
Nothing in the majority’s reasoning undermines the
soundness of this pro-veteran interpretation. The majority
concludes that a combination of dictionary definitions, con-

added). As I further explain in Section III, this “reasonable
possibility” standard does not require new evidence to be
independently capable of changing the outcome of a claim.
See infra, 17–18.

34a
text, and case law “makes clear” that the VA’s interpretation is correct, but its inferences and assumptions fail under scrutiny.
First, borrowing from definitions of “relevant” as pertaining to “a matter in issue,”8 the majority assumes that
“in issue” means “in dispute,” and reasons that evidence
can only be relevant if it pertains to facts that were “disputed” during the claim’s prior adjudication. Slip Op. 9, 13.
Not only is this inference unwarranted in common legal usage, see Fed. R. Evid. 401 advisory committee’s note (“[t]he
fact to which [relevant] evidence is directed need not be in
dispute”),9 it is fundamentally out of place in the VA’s “completely ex-parte system of adjudication.” Hodge, 155 F.3d
at 1362–63. Because no adverse party is expected to contest
a claimant’s assertions, the question of whether a fact is
“disputed” has no import for whether it must be supported
by competent evidence and adjudicated by the VA; that
question depends instead on whether the fact remains unestablished and necessary for substantiating the claim.
Here, regardless of whether the presence of Mr. Kisor’s in-

8

See Slip Op. 13 (citing Black’s Law Dictionary (10th ed.
2014) (defining “relevant” as “[l]ogically connected and
tending to prove or disprove a matter in issue”)).
9
Indeed, the Advisory Committee observed that evidence
directed to an uncontroversial point is often relevant and
admissible at trial to “aid in understanding” the case. Fed.
R. Evid. 401 advisory committee’s note. Relatedly, in Forshey v. Principi, this court rejected the VA’s argument that
“relevant” questions of law must have been specifically
raised and addressed in prior proceedings. 284 F.3d 1335,
1351–52 (Fed. Cir. 2002). In doing so, we construed “relevant” to mean “bear[ing] upon or properly apply[ing] to the
issues before us” based on the term’s dictionary definitions.
Id. (emphasis added).

35a
service stressor was “disputed” by the VA, it was not established at the time of the VA’s first decision because the only
mention of his combat experience in the record—a
secondhand account by a VA examiner—was not competent
evidence of a stressor. See, e.g., Cohen v. Brown, 10 Vet.
App. 128, 145–46 (1997) (noting, in remanding a case to the
Board, that “[a]n opinion by a mental health professional
based on a post[-]service examination of the veteran cannot
be used to establish the occurrence of the stressor,” and
that the VA is “not require[d] [to] accept[] . . . a veteran’s
assertion that he was engaged in combat with the enemy”).
Next, the majority infers from language in § 3.156(c)(3)
that relevant records must “speak to the basis for the VA’s
prior decision.”10 Slip Op. 12–13. Subsection (c)(3) provides
that an award granted after reconsideration can receive a
retroactive effective date if it is “made based all or in part”
on the records that triggered reconsideration. § 3.156(c)(3).
The majority reasons that records that do not “speak to the
basis for the VA’s prior decision” cannot form all or part of
the basis for the VA’s current award of benefits after reconsideration. Slip Op. 12–13. But nothing in the text ties the

10

The VA’s position on whether “relevant” records must
pertain to the “basis for the VA’s prior decision” has been a
moving target. The Board relied on this requirement in
denying Mr. Kisor an earlier effective date. J.A. 91. In its
initial response to Mr. Kisor’s appeal to this court, the VA
disavowed that interpretation, calling it “distorted.” Resp.
18–19. This panel accepted that disavowal. Kisor I, 869
F.3d at 1369. On remand, the VA changed course in its supplemental briefing, asserting unequivocally that “to be ‘relevant’ for purposes of reconsideration, the additional records must speak to the basis for the VA’s prior decision.”
Gov. Supp. 16. The majority now accepts that interpretation without skepticism. Slip Op. 9, 12–13.

36a
basis of the subsequent award to the basis of the prior decision. Nor are the two logically linked. If the VA denies a
claim based on lack of evidence for one element without
reaching the others, a later decision granting the claim will
still be “based” on evidence of all the elements. And here,
the VA’s 2007 award to Mr. Kisor was indisputably “based”
at least “in part” on his combat records. The majority seems
to admit as much, see Slip Op. 6, and the Board never found
otherwise.
In addition, the majority suggests that language in
§ 5103A(a)(2) excused the VA from further assisting with
or reconsidering Mr. Kisor’s claim after the first VA examiner failed to diagnose him with PTSD. Slip Op. 13, 16 (citing § 5103A(a)(2)). Section 5103A(a)(2) provides that the
VA is not obligated to assist with a claim if “no reasonable
possibility exists that such assistance would aid in substantiating the claim.” The majority reasons that if “evidence does not establish a missing claim element,” then it
“provides no reasonable possibility that the claim could be
substantiated.” Slip Op. 16.
But that reading of § 5103A is irreconcilable with our
precedent that the VA’s duty to obtain records is not limited to “dispositive” evidence. McGee, 511 F.3d at 1358;
Jones, 918 F.3d at 926. We have emphasized that the VA’s
duty to assist is excused only when “no reasonable possibility exists that such assistance would aid in substantiating
the claim.” Jones, 918 F.3d at 926 (emphasis in original)
(citing 38 U.S.C. § 5103A(a)(2)).11 Even when the availability of a new record leaves a claim element unestablished,

11

It is instructive that the VA’s own regulations appear to
construe the “no reasonable possibility” standard extremely narrowly, limiting its examples to claims that are
incapable of substantiation as a matter of law or facially

37a
there often remains the possibility that the missing element will be established with further assistance. Indeed,
the “no reasonable possibility” standard in § 5103A(a)(2)
was enacted to replace the unduly burdensome “wellgrounded claim” standard in § 5107(a) that had required a
veteran to present plausible evidence of each element of his
claim before triggering the VA’s duty to assist. See Paralyzed Veterans of Am., 345 F.3d at 1343; Epps v. Gober, 126
F.3d 1464, 1468 (Fed. Cir. 1997). The majority’s reading of
the “reasonable possibility” standard would import the
well-grounded claim rule into the very provision enacted to
overrule it.
Moreover, there is no factual basis for concluding that
Mr. Kisor’s claim had “no reasonable possibility” of being
substantiated. The VA treated his claim as capable of substantiation when it obtained unit records to substantiate
his combat stressor. On appeal, the Board found only that
the combat records did not “manifestly change [the] outcome” of the VA’s decision, not that they had no reasonable
possibility of helping to do so. J.A. 90. In fact, Mr. Kisor’s
claim was substantiated with the aid of his combat records,
and not miraculously so. Once there was competent evidence of Mr. Kisor’s stressor, all that was needed to substantiate his claim was a new psychiatric examination.
Given the history of his first examination, and the circumstantial nature of a PTSD diagnosis, there was at least a
reasonable possibility that a new examination in light of

incredible as a matter of fact: e.g., a veteran with a dishonorable discharge applying for VA benefits; a compensation
claim for prostate cancer from a female veteran or ovarian
cancer from a male veteran; a compensation claim for a disability that is the result of willful misconduct; or a claim
for service connection for alcoholism or drug addiction. 38
C.F.R. § 3.159(d); Duty to Assist, 66 Fed. Reg. at 17837.

38a
the newly collected evidence would yield a different diagnosis and substantiate his claim.12
Finally, the majority relies on language from Blubaugh
v. McDonald for the proposition that “relevant” service records must (1) “remedy the defects” of a prior decision, (2)
pertain to facts that were “in question,” and (3) “lead VA to
award a benefit that was not granted in the previous decision.” Slip Op. 14 (citing Blubaugh, 773 F.3d at 1314). But
the majority reads these statements out of context. In
Blubaugh, we were not construing the word “relevant” as
the threshold for reconsideration. We were explaining that
retroactive benefits are only available under § 3.156(c) if
entitlement is in fact awarded upon reconsideration of the
veteran’s claim. In Blubaugh, the veteran’s claim was denied when the VA reconsidered his claim in light of his
newly identified service record—a document that was not
probative of any fact necessary for substantiating his
claim. Id. It was in the context of discussing this denial by
the VA that we explained that the new record did not “remedy [the] defects” of the prior decision, pertain to facts that
were “in question,” or “lead VA to award a benefit.” Id. at
1314. Thus, nothing in Blubaugh suggests that service records are not “relevant” when, as here, the VA awards a
claim after considering the records and expressly relies on
the records in making the award.
Ultimately, nothing in the majority’s reasoning establishes that the VA’s outcome determinacy requirement for
relevance is compelled by the text of the regulation or otherwise unambiguously correct. Thus, the majority should
have tested the strength of the VA’s arguments against the
weight of the pro-veteran canon. That the majority refused
12

As discussed, supra n.4, Mr. Kisor was not unique in having different VA examiners reach different diagnoses of his
condition.

39a
to do so here deprived Mr. Kisor of the solicitude and independent judgment he was owed in this appeal.
IV.
Courts have “long applied the canon that provisions for
benefits to members of the Armed Services are to be construed in the beneficiaries’ favor.” Henderson ex rel. Henderson v. Shinseki, 562 U.S. 428, 441 (2011) (citing King v.
St. Vincent’s Hosp., 502 U.S. 215, 220–21, n.9 (1991) (internal quotations omitted)). Thus, interpretive doubt in such
provisions should be resolved for the benefit of veteran.
Brown v. Gardner, 513 U.S. 115, 118 (1994). This canon is
a corollary of the broader interpretive rule that remedial
provisions are to be construed liberally to effectuate and
not frustrate their remedial purpose. See Boone v. Lightner,
319 U.S. 561, 575 (1943); Beley v. Naphtaly, 169 U.S. 353,
361 (1898).
This panel unanimously held in Kisor I that the plain
text of § 3.156(c) was ambiguous as to the scope of the word
“relevant,” and that text has not changed since that decision. Kisor I, 869 F.3d at 1367. Yet the majority concludes
that the canon “does not apply here,” because after considering arguments that favor the VA’s position under the
other tools of construction, the majority has “no remaining
interpretive doubt.” Slip Op. 16. The majority relies entirely on this alleged lack of interpretive doubt to avoid the
pro-veteran canon entirely. The majority is wrong: interpretive doubt does exist here and the canon should not be
cast aside.
While we have held that the pro-veteran canon applies
only to ambiguous statutes and cannot override plain text,
that rule does not render the canon a tool of last resort,

40a
subordinate to all others.13 To the contrary, we have stated
that the canon applies whenever the plain text does not expressly exclude the veteran’s interpretation. Sursely v.
Peake, 551 F.3d 1351, 1357 (Fed. Cir. 2009); Hudgens v.
McDonald, 823 F.3d 630, 637 (Fed. Cir. 2016). Thus, we
have accepted the canon’s guidance over the VA’s reliance
on a dictionary definition. Hudgens, 823 F.3d at 637. We
have weighed the canon against countervailing legislative
history. Nat’l Org. of Veterans’ Advocs., Inc. v. Sec’y of Veterans Affs., 260 F.3d 1365, 1377–78 (Fed. Cir. 2001). We
have favored the canon over arguments that the veteran’s
interpretation would lead to “irrational” results. Sursely,
551 F.3d at 1357–58. While the canon may not be dispositive of a provision’s meaning every time it is applied, we
are obligated to weigh it alongside the other tools of construction when the text itself gives us doubt.
Here, the majority points to nothing in the text that precludes Mr. Kisor’s interpretation of “relevant.” Indeed, this
panel accepted in Kisor I that his position was reasonable.
Kisor I, 869 F.3d at 1368. While the majority now rejects
his view as “squarely contrary” to what it concludes is the

13

Indeed, plain text defeats all other tools of construction.
See Nat’l Ass’n of Mfrs. v. Dep’t of Def., 138 S. Ct. 617, 631
(2018) (holding that when “plain language . . . is unambiguous, [the court’s] inquiry begins with the statutory text,
and ends there as well.”) (internal citations omitted); see
also Decosta v. United States, 987 F.2d 1556, 1558 n.3 (Fed.
Cir. 1993) (holding that “legislative history cannot override
the plain meaning of a statute.”); Charleston Area Med.
Ctr., Inc. v. United States, 940 F.3d 1362, 1370 (Fed. Cir.
2019) (stating that “principles of symmetry cannot override
the plain text of the statute.”); Stern v. Marshall, 564 U.S.
462, 478 (2011) (finding constitutional avoidance canon inapplicable where it would require rewriting the statute).

41a
“correct reading” of the regulation, it does not explain why
his reading is now contrary to the text.
In setting the preconditions for Auer deference, the
Court requires courts to first exhaust the “traditional tools
of construction” because “the core theory of Auer deference
is that sometimes the law runs out, and [a] policy-laden
choice is what is left over.” Kisor v. Wilkie, 139 S. Ct. 2400,
2415 (2019) (“Kisor II”). The pro-veteran canon is not based
on this “deference” theory. The canon does not serve to provide a “policy-laden” position, adrift from traditional legal
principles, that differs with each case. Id. Rather, the proveteran canon is squarely rooted in the purpose of veterans’
benefit provisions, which we are bound to consider and effectuate in every construction.
If, as the majority seems to suggest, we can set aside
the pro-veteran canon unless and until all other considerations are tied, then the canon is dead because there is no
such “equipoise” in legal arguments. Id. at 2429–30 (Gorsuch, J., concurring in the judgment). It is our role as the
court to fully employ the canons available in our “traditional interpretive toolkit” to reach “the best and fairest
reading of the law.” Id. at 2430, 2446. In this case, when
the regulatory text provides no clear answer, i.e. interpretive doubt exists, as to the scope of the word “relevant,” our
consideration of other sources of its meaning should be
guided by solicitude for the provision’s pro-veteran remedial purpose.
Here, reconsideration under § 3.156(c) serves two remedial purposes: procedurally, it acknowledges to the veteran
that the VA failed in its duty to assist him and provides
him with the complete and sympathetic assistance and review that he was owed; substantively, it makes the veteran
financially whole for the benefits that he can now prove he
was entitled to. The VA’s interpretation frustrates both of

42a
those purposes. It denies veterans the right to a fair review
unless they make the often impossible showing that an unsought record would have changed the course of the VA’s
prior decision. And it bars veterans from recovering compensation that is rightfully theirs.
The unreasonableness of that construction is plain in
this case. The VA undeniably failed Mr. Kisor in this case
when it made no effort whatsoever to obtain records to substantiate his in-service stressor. Rather than acknowledge
its failure and make amends for it, the VA placed the burden on Mr. Kisor to show that its mistake was dispositive
of its decision against him. When the agency deemed its
new requirement unsatisfied, it denied the veteran twentythree years of benefits for PTSD that he can now prove he
suffered as a result of his service.
Those payments were compensatory, not charitable.
They rightfully belonged to Mr. Kisor and his family. When
Mr. Kisor and millions of others joined the armed services
in their youth for modest pay, risking the rest of their lives,
they did so with the government’s promise that upon their
return, it would make them as whole as possible, if only
financially, for their wounds, and that, as veterans, they
would be treated fairly and sympathetically in the process.
That is the basic purpose of the VA’s existence. Its governing statutes and regulations should always be construed
liberally within the bounds of their text to effectuate that
purpose. This recognition is at the core of the pro-veteran
canon. The majority waves it aside.
On this remand, freed from deference to the agency, we
owed Mr. Kisor our best independent judgment of the law’s
meaning. We fail in that obligation when we again accept
the VA’s arguments unmoored from both the text of the law
and the basic principles underlying its purpose.
For these reasons, I dissent.

43a
APPENDIX B

UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
JAMES L. KISOR,
Claimant-Appellant
v.
DENIS MCDONOUGH, SECRETARY OF
VETERANS AFFAIRS,
Respondent-Appellee
2016-1929
Appeal from the United States Court of Appeals for Veterans Claims in No. 14-2811, Senior Judge Alan G. Lance,
Sr.
ON PETITION FOR REHEARING EN BANC
PAUL WHITFIELD HUGHES, McDermott, Will & Emery
LLP, Washington, DC, filed a petition for rehearing en
banc for claimant-appellant. Also represented by KENNETH
M. CARPENTER, Law Offices of Carpenter Chartered, Topeka, KS.
IGOR HELMAN, Commercial Litigation Branch, Civil Division, United States Department of Justice, Washington,
DC, filed a response to the petition for respondent-appellee.
Also represented by JEFFREY B. CLARK, MARTIN F. HOCKEY,

44a
JR., ROBERT EDWARD KIRSCHMAN, JR.; Y. KEN LEE, SAMANTHA ANN SYVERSON, Office of General Counsel, United
States Department of Veterans Affairs, Washington, DC.
ROMAN MARTINEZ, Latham & Watkins LLP, for amici
curiae American Veterans, National Organization of Veterans’ Advocates, Inc., Paralyzed Veterans of America, Veterans of Foreign Wars of the United States, Vietnam Veterans of America. Also represented by GREGORY B. IN DEN
BERKEN.
Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
HUGHES, and STOLL, Circuit Judges.
PROST, Chief Judge, with whom LOURIE, WALLACH,
TARANTO, and CHEN, Circuit Judges, join, and with whom
HUGHES, Circuit Judge, joins as to Parts I.B–C and II,
concurs in the denial of the petition for rehearing en banc.
HUGHES, Circuit Judge, with whom WALLACH, Circuit
Judge, joins, concurs in the denial of the petition for
rehearing en banc.
DYK, Circuit Judge, concurs in the denial of the petition
for rehearing en banc.
O’MALLEY, Circuit Judge, with whom NEWMAN, MOORE,
and REYNA, Circuit Judges, join, dissents from the denial
of the petition for rehearing en banc.
REYNA, Circuit Judge, with whom NEWMAN, MOORE, and
O’MALLEY, Circuit Judges, join, dissents from the denial
of the petition for rehearing en banc.
PER CURIAM.

45a
ORDER
James L. Kisor filed a petition for rehearing en banc. A
response to the petition was invited by the court and filed
by the Secretary of Veterans Affairs. American Veterans,
National Organization of Veterans’ Advocates, Inc., Paralyzed Veterans of America, Veterans of Foreign Wars of the
United States, and Vietnam Veterans of America requested leave to file a brief as amici curiae, which the court
granted. The petition for rehearing, response, and amicus
brief were first referred to the panel that heard the appeal,
which granted the petition in part as indicated in the accompanying order. Thereafter, the petition was referred to
the circuit judges who are in regular active service. The
court conducted a poll on request, and the poll failed.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for rehearing en banc is denied.

FOR THE COURT
April 30, 2021
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

46a

UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
JAMES L. KISOR,
Claimant-Appellant
v.
DENIS MCDONOUGH, SECRETARY OF
VETERANS AFFAIRS,
Respondent-Appellee
2016-1929
Appeal from the United States Court of Appeals for Veterans Claims in No. 14-2811, Senior Judge Alan G. Lance,
Sr.
PROST, Chief Judge, with whom LOURIE, WALLACH, TARANTO, and CHEN, Circuit Judges, join, and with whom
HUGHES, Circuit Judge, joins as to Parts I.B–C and II, concurring in the denial of the petition for rehearing en banc.
I concur with the court’s decision to deny rehearing en
banc. I write separately in response to my dissenting colleagues regarding the proper role of the pro-veteran canon,
which instructs that “interpretive doubt” is to be resolved
in the veteran’s favor. Brown v. Gardner, 513 U.S. 115, 118
(1994). In what follows, I (I) delineate my view of the proper
place for this canon in the order-of-operations of textual interpretation, (II) respond to my dissenting colleagues’
treatment of this canon, and (III) discuss the unresolved
tension between this canon and the Supreme Court’s Chevron and Auer doctrines.

47a
DISCUSSION
I. THE PROPER ROLE OF THE PRO-VETERAN CANON
In my view, the Majority is right: “Interpretive doubt”
is a precondition for applying the pro-veteran canon, and
that precondition “is not satisfied where a sole reasonable
meaning is identified through the use of ordinary textual
analysis tools.” Maj. at 16.1 Put another way, courts must
first seek the “best reading” of the statute based on “the
words themselves,” “the context of the whole statute,” and
“any other applicable semantic canons, which at the end of
the day are simply a fancy way of referring to the general
rules by which we understand the English language.” Brett
M. Kavanaugh, Fixing Statutory Interpretation, 129 Harv.
L. Rev. 2118, 2144–45 (2016) (reviewing Robert A.
Katzmann, Judging Statutes (2014)). As explained in detail
below, in view of (A) the Supreme Court’s insistence on the
primacy of text, (B) the pro-veteran canon’s historical usage and the other canons most like it, and (C) Congress’s
consistently active role in veterans law, I am persuaded
that the pro-veteran canon should play a role only when a
sustained textual analysis—including any applicable descriptive canons—yields competing plausible interpretations, none of which is fairly described as the best.
A. THE PRIMACY OF TEXT
In order to place the pro-veteran canon in the Supreme
Court’s interpretive methodology, it is necessary to first set
the stage by outlining the hierarchy of interpretive tools

1

I refer to the Majority’s panel opinion as “Maj.” I refer to
Judge Reyna’s dissent from the panel’s opinion as “Panel
Dissent.” I refer to Judge O’Malley’s dissent from the denial of rehearing en banc as “O’Malley Dissent.”

48a
the Court applies.2 At the top of this hierarchy is the text.
In the Court’s words, “canons of construction are no more
than rules of thumb,” and the text is the “one, cardinal
canon” a court must turn to “before all others.” Conn. Nat’l
Bank v. Germain, 503 U.S. 249, 253 (1992). And “[w]hen
the words of a statute are unambiguous, . . . this first canon
is also the last: ‘judicial inquiry is complete.’” Id. at 254
(quoting Rubin v. United States, 449 U.S. 424, 430 (1981));
accord Katzmann, supra, at 29 (“When statutes are unambiguous, . . . the inquiry for a court generally ends with an
examination of the words of the statute.”). Of course, this

2

Although the interpretive method described in this
opinion is often set forth with reference to statutes, the
same general methodology applies to regulations, as in this
case. See Kisor v. Wilkie, 139 S. Ct. 2400, 2415 (2019) (explaining that “a court must exhaust all the ‘traditional
tools’ of construction” and observing that Chevron U.S.A.
Inc. v. Natural Resources Defense Council, Inc., 467 U.S.
837, 843 n.9 (1984), adopted the “same approach for ambiguous statutes”). That said, if the pro-veteran canon is based
on the theory that it is a proxy for congressional intent, one
wonders why it should apply to regulations as well as statutes, or at least whether it would apply with equal force.
The Supreme Court has not addressed that question. Regardless, because our court did apply the canon to a regulation in Hudgens v. McDonald, 823 F.3d 630 (Fed. Cir.
2016), I will assume for purposes of this opinion that it applies to both statutes and regulations. Even on this assumption, it is important when interpreting a regulation to
consider the specific statutory provisions reflecting the pertinent congressional policies, which may include important
limits on benefits. For example, as relevant here, the statute’s finality policies tightly limit retroactive alteration of
final agency determinations while making prospective redetermination broadly available.

49a
text-first rule is not an instruction to “construe the meaning of statutory terms in a vacuum.” Tyler v. Cain, 533 U.S.
656, 662 (2001). Rather, our focus on the text requires us
to “interpret the words in their context and with a view to
their place in the overall statutory scheme.” Id. (internal
quotation marks omitted).
As we analyze text and context, some canons of interpretation enter the analysis. “Canons are general background principles that courts have developed over time to
guide statutory interpretation.” Arangure v. Whitaker, 911
F.3d 333, 339 (6th Cir. 2018). They come in several flavors.
Many canons are no more than aids for analyzing the text
and context, “guides to solving the puzzle of textual meaning.” Antonin Scalia & Bryan A. Garner, Reading Law 59
(2012). These “descriptive” canons “simply reflect broader
conventions of language use, common in society at large at
the time the statute was enacted.” Caleb Nelson, What Is
Textualism?, 91 Va. L. Rev. 347, 383 (2005).3 The seriesqualifier canon, for example, “generally reflects the most
natural reading of a sentence.” Facebook, Inc. v. Duguid,
141 S. Ct. 1163, 1169 (2021); id. at 1169–73 (identifying
best meaning by analyzing text, context, and descriptive
canons). Other familiar examples include expressio unius
est exclusio alterius (the expression of one thing implies the
exclusion of others) and noscitur a sociis (associated words
bear on one another’s meaning). See generally Scalia &
Garner, supra, at 107–11, 195–98. Canons of this sort “are

3

My focus when discussing descriptive canons is on the
“strongest species”—i.e., those that “clearly and exclusively
serve descriptive, rather than normative, purposes.” See
Arangure, 911 F.3d at 340. These canons, which may also
be termed “linguistic” canons, may be further categorized
under other labels, such as “semantic,” “syntactic,” or “contextual.” See generally Scalia & Garner, supra, at 69–234.

50a
not ‘rules’ of interpretation in any strict sense but presumptions about what an intelligently produced text conveys.” Facebook, 141 S. Ct. at 1174 (Alito, J., concurring)
(quoting Scalia & Garner, supra, at 51).
Other canons “direct courts to construe any ambiguity
in a particular way in order to further some policy objective.” Nelson, supra, at 418 n.140 (quoting Stephen F. Ross,
Where Have You Gone, Karl Llewellyn? Should Congress
Turn Its Lonely Eyes to You?, 45 Vand. L. Rev. 561, 563
(1992)). Canons of this sort are a type of “normative” canon.
Id. They enter the calculus when judges “need some way to
finish the job and to pick from among the possible meanings that their primary interpretive tools have identified.”
Id. at 394. Accordingly, many normative canons “express a
rule of thumb for choosing between equally plausible interpretations of ambiguous text”—i.e., when descriptive tools
do not illuminate a best meaning. Amy Coney Barrett, Substantive Canons and Faithful Agency, 90 B.U. L. Rev. 109,
109 (2010). As explained below, the pro-veteran canon is of
this variety—and therefore should be considered only if descriptive tools do not yield a best meaning.
B. THE HISTORY OF THE PRO-VETERAN CANON
With that backdrop in place, I turn to the pro-veteran
canon. The canon’s history is relatively short. It appears to
have originated with a closing remark in the Supreme
Court’s World War II–era Boone v. Lightner opinion. 319
U.S. 561 (1943).4 Not citing any authority, the Court concluded by stating that “[t]he Soldiers’ and Sailors’ Civil Relief Act is always to be liberally construed to protect those
who have been obliged to drop their own affairs to take up
the burdens of the nation.” Id. at 575.

4

The rule of lenity, by comparison, “antedates both state
and federal constitutions.” Scalia & Garner, supra, at 297.

51a
Since Boone, the Court has applied the canon rarely. In
some cases, the Court has referenced the canon without expressly applying it in statutory analysis. Ala. Power Co. v.
Davis, 431 U.S. 581, 584 (1977) (analyzing Military Selective Service Act of 1967); Coffy v. Republic Steel Corp., 447
U.S. 191, 196 (1980) (analyzing Vietnam Era Veterans’ Readjustment Assistance Act of 1974); Shinseki v. Sanders,
556 U.S. 396, 412 (2009) (recognizing Congress’s “solicitude
for the veterans’ cause” but not applying the canon). In others, the Court has not mentioned the canon at all. See
McKinney v. Missouri-Kansas-Texas R.R. Co., 357 U.S. 265
(1958) (analyzing Universal Military Training and Service
Act); Accardi v. Penn. R.R. Co., 383 U.S. 225 (1966) (analyzing Selective Training and Service Act of 1940); Foster
v. Dravo Corp., 420 U.S. 92 (1975) (analyzing Military Selective Service Act); Monroe v. Standard Oil Co., 452 U.S.
549 (1981) (ignoring the dissent’s mention of the canon);
Conroy v. Aniskoff, 507 U.S. 511 (1993) (ignoring the concurrence’s mention of the canon). In still others, the Court
has invoked the canon only to further confirm an interpretation that it reached by analyzing text and context. E.g.,
King v. St. Vincent’s Hosp., 502 U.S. 215, 221 n.9 (1991);
Brown, 513 U.S. at 118; see also Henderson ex rel. Henderson v. Shinseki, 562 U.S. 428 (2011) (also analyzing structure of the statutory scheme). Importantly, as the Court
explained in Brown, the canon applies only when there is
“interpretive doubt.” 513 U.S. at 118.5

5

Accordingly, we have repeatedly emphasized this precondition. See, e.g., McKnight v. Gober, 131 F.3d 1483, 1485
(Fed. Cir. 1997); Jones v. West, 136 F.3d 1296, 1299 n.2
(Fed. Cir. 1998); Boyer v. West, 210 F.3d 1351, 1355 (Fed.
Cir. 2000); Paralyzed Veterans of Am. v. Sec’y of Veterans
Affairs, 345 F.3d 1334, 1340 (Fed. Cir. 2003); Thomas v.
Nicholson, 423 F.3d 1279, 1284 n.5 (Fed. Cir. 2005); Niel-

52a
The Supreme Court has therefore used two formulations of the pro-veteran canon. The Court’s initial formulation provides that provisions are “to be liberally construed”
for the benefit of veterans. Boone, 319 U.S. at 575. This version resembles the broader notion that remedial statutes
should be liberally construed. See generally Scalia & Garner, supra, at 364–66. The more recent formulation, on the
other hand, provides that “interpretive doubt” is to be resolved in the veteran’s favor. Brown, 513 U.S. at 118. This
version closely resembles the rule of lenity, which instructs
that ambiguity in a statute defining a crime or imposing a
penalty should be resolved in the defendant’s favor. See,
e.g., Moskal v. United States, 498 U.S. 103, 108 (1990)
(“[W]e have always reserved lenity for those situations in
which a reasonable doubt persists . . . .”); see generally
Scalia & Garner, supra, at 296–302. As explained below,
the result is the same under either formulation: The proveteran canon should be considered only after descriptive
tools fail to yield a best meaning of the provision.
1. THE BOONE FORMULATION
The canon’s origin as a species of the liberal-construction principle is one reason why the canon should play no
role until after a full textual analysis yields no best meaning. As an initial matter, the liberal-construction principle
has long been understood to yield to the text (as illuminated by the descriptive canons). As Justice Story once explained, “this liberality of exposition . . . is clearly inadmissible, if it extends beyond the just and ordinary sense of the
terms.” Scalia & Garner, supra, at 364 (quoting 1 Joseph

son v. Shinseki, 607 F.3d 802, 808 (Fed. Cir. 2010); Frederick v. Shinseki, 684 F.3d 1263, 1269 (Fed. Cir. 2012); Spicer
v. Shinseki, 752 F.3d 1367, 1371 (Fed. Cir. 2014); Parrott
v. Shulkin, 851 F.3d 1242, 1251 (Fed. Cir. 2017).

53a
Story, Commentaries on the Constitution of the United
States § 429, 304 (2d ed. 1858)).6
Any broader view of the liberal-construction principle is
now heavily disfavored. The Supreme Court has called the
principle, when broadly understood to override the fair
meaning of the text, the “last redoubt of losing causes.”
Dir., Off. of Workers’ Comp. Programs, Dep’t of Labor v.
Newport News Shipbuilding & Dry Dock Co., 514 U.S. 122,
135 (1995). And for good reason. Such a view “is premised
on two mistaken ideas: (1) that statutes have a singular
purpose and (2) that Congress wants statutes to extend as
far as possible in service of that purpose.” Keen v. Helson,
930 F.3d 799, 805 (6th Cir. 2019). Contrary to those mistaken ideas, the Supreme Court has explained that “[l]egislation is, after all, the art of compromise, the limitations
expressed in statutory terms often the price of passage, and
no statute yet known pursues its stated purpose at all
costs.” Henson v. Santander Consumer USA Inc., 137 S. Ct.
1718, 1725 (2017) (cleaned up). Indeed, “[e]very statute
proposes, not only to achieve certain ends, but also to
achieve them by particular means—and there is often a
considerable legislative battle over what those means
ought to be.” Newport News, 514 U.S. at 136. As Justice
Sotomayor recently remarked for a unanimous Court: It is
not for us to “take a chainsaw to . . . nuanced problems
when Congress meant to use a scalpel.” Facebook, 141 S.
6

The liberal-construction principle may have begun long
ago as an “antidote” to the rule that statutes in derogation
of the common law were to be strictly construed— reducing
it to “nothing more than rejection of ‘strict construction’
and insistence on fair meaning.” Scalia & Garner, supra, at
365–66. Justice Scalia remarked, however, that courts
have at times used the liberal-construction principle “to
devastating effect.” Antonin Scalia, A Matter of Interpretation 27–28 (1997).

54a
Ct. at 1171; see also id. at 1172–73 (rejecting “mere[] gestures at Congress’ ‘broad privacy-protection goals’” because
the Court “must interpret what Congress wrote”). Ultimately “the effort, with respect to any statute, should be
neither liberally to expand nor strictly to constrict its
meaning, but rather to get the meaning precisely right.”
Antonin Scalia, Assorted Canards of Contemporary Legal
Analysis, 40 Case W. Res. L. Rev. 581, 582 (1990). At best,
to the extent that there are legitimate uses of the liberalconstruction principle, it “may be invoked, in case of ambiguity, to find present rather than absent elements that are
essential to operation of a legislative scheme; but it does
not add features that will achieve the statutory ‘purposes’
more effectively.” Newport News, 514 U.S. at 135–36.
Consistent with this critique, the Supreme Court in
some cases has rejected the liberal-construction principle’s
application altogether. In Norfolk Southern Railway Co. v.
Sorrell, for example, the Court rejected a party’s reliance
on the “remedial purpose” and “history of liberal construction” of the Federal Employers’ Liability Act (“FELA”). 549
U.S. 158, 171 (2007). Although the Court recognized that
“FELA was indeed enacted to benefit railroad employees,”
the Court explained that “[i]t does not follow, however, that
this remedial purpose requires us to interpret every uncertainty in the Act in favor of employees.” Id. (citing Rodriguez v. United States, 480 U.S. 522, 526 (1987) (per curiam)
(“[I]t frustrates rather than effectuates legislative intent
simplistically to assume that whatever furthers the statute’s primary objective must be the law.”)). The Court concluded that “the statute’s remedial purpose cannot compensate for the lack of a statutory basis.” Id.; see also Cronin
v. United States, 765 F.3d 1331, 1337–38 (Fed. Cir. 2014)
(declining to rest on “the need to construe [a statute] liberally for members of the armed services” because doing so
does not “give sufficient weight to the natural meaning” of

55a
the provision “given its language and setting” and because
“no legislation pursues its purposes at all costs”).
Similarly, the Court in CTS Corp. v. Waldburger disagreed with the Fourth Circuit’s analysis, which relied on
“the proposition that remedial statutes should be interpreted in a liberal manner.” 573 U.S. 1, 12 (2014). Specifically, the Court explained that the Fourth Circuit “was in
error when it treated this as a substitute for a conclusion
grounded in the statute’s text and structure.” Id.; see also
Rodriguez, 480 U.S. at 525 (“[M]ost impermissibly, the
Court of Appeals relied on its understanding of the broad
purposes of the [statute] . . . .”). After all, the Court emphasized, “no legislation pursues its purposes at all costs.” CTS
Corp., 573 U.S. at 12. To the contrary, “[c]ongressional intent is discerned primarily from the statutory text.” Id. After dismissing the liberal-construction principle outright,
the Court interpreted the statute by undertaking a sustained textual analysis. Id. at 12–18. Only after doing so
did the Court consult a normative canon— that “when the
text of a pre-emption clause is susceptible of more than one
plausible reading, courts ordinarily accept the reading that
disfavors pre-emption”—and only for “additional support.”
Id. at 18–19 (internal quotation marks omitted).
Christopher v. SmithKline Beecham Corp., on which
Judge O’Malley relies, further proves the point. See O’Malley Dissent at 20–21 (discussing 567 U.S. 142 (2012)). After
deciding that it would be improper to defer under Auer v.
Robbins, 519 U.S. 452 (1997), the Court in Christopher proceeded to “employ traditional tools of interpretation.” 567
U.S. at 161.7 The Court followed the usual hierarchy. It
started with the text. Id. Then it analyzed the context. Id.
7

Deferring under Auer there would have produced “unfair
surprise” and deprived the employer of “fair warning” under the Court’s cases. Christopher, 567 U.S. at 156.

56a
at 162 (explaining that “any” can mean “different things
depending upon the setting”). Next, it consulted a descriptive canon: “the rule of ejusdem generis should guide our
interpretation of the catchall phrase, since it follows a list
of specific items.” Id. at 163. Only after that descriptive
analysis did the Court turn to a normative canon—mentioning in a footnote a statement in an earlier case that exemptions for employers in the FLSA must be “narrowly
construed against the employers.” Id. at 164 n.21 (quoting
Arnold v. Ben Kanowsky, Inc., 361 U.S. 388, 392 (1960)).
But the Court in Christopher did not even apply that
canon, noting instead that it was “inapposite” because the
Court was “interpreting a general definition that applies
throughout the FLSA.” Id. Although Judge O’Malley argues that Christopher “did not relegate the remedial purpose of the [FLSA] scheme to an afterthought,” O’Malley
Dissent at 21, in fact Christopher declared the canon inapplicable to the case before it. And when the Court, near the
end of its opinion, stated that its interpretation “comports
with the apparent purpose” of the particular FLSA provision at issue, Christopher, 567 U.S. at 166, it was not applying a liberal-interpretation canon for remedial laws, but
completing its textualist determination of the “fair reading” of the statute—a determination that “requires an ability to comprehend the purpose of the text, which is a vital
part of its context.” Scalia & Garner, supra, at 33. Christopher decided the case by analyzing the text in context. And
although Judge O’Malley relies on Christopher to assert
that “[v]eterans deserve no less protection than low wage
employees,” O’Malley Dissent at 12, Christopher actually
held in favor of the employers.
Importantly, Boone itself, the progenitor of the pro-veteran canon, followed a similar path—relying on the text to
reject the veteran’s interpretation by applying descriptive

57a
“[c]anons of statutory construction.” 319 U.S. at 565 (reasoning that “we should not needlessly render as meaningless the [statutory] language”). Accordingly, the origin of
the pro-veteran canon as a species of the liberal-construction principle confirms that it belongs at the end of a descriptive textual analysis when that analysis does not yield
a best meaning.
2. THE BROWN FORMULATION
The more recent “interpretive doubt” formulation of the
pro-veteran canon, which was articulated in Brown, does
nothing to elevate the canon in the interpretive hierarchy.
To the contrary, as a logical matter, if “interpretive doubt”
is a precondition for applying the canon, as Brown declares,
the existence of interpretive doubt must be determined
without employing the canon. Otherwise, circularity results.
The Brown formulation strongly resembles the rule of
lenity, moreover, and that rule is considered at the end of
the analysis. In the words of Chief Justice Marshall, a court
should not apply the rule unless the statute remains ambiguous “[a]fter seiz[ing] every thing from which aid can be
derived.” Moskal, 498 U.S. at 108 (quoting United States v.
Fisher, 2 Cranch 358, 386 (1805)) (alterations in original
and internal quotation marks omitted). Last year in Shular
v. United States, for example, the Court concluded that the
statute’s text and context left “no ambiguity for the rule of
lenity to resolve” after a textual analysis. 140 S. Ct. 779,
787 (2020). Speaking for the unanimous Court, Justice
Ginsburg explained that the rule “applies only when, after
consulting traditional canons of statutory construction, we
are left with an ambiguous statute.” Id. Similarly in Yates
v. United States, the Court performed a textual analysis—
featuring the canon against surplusage, noscitur a sociis,
and ejusdem generis—and only after doing so buttressed its

58a
interpretation with a remark that “if our recourse to traditional tools of statutory construction leaves any doubt[,] . .
. we would invoke the rule [of lenity].” 574 U.S. 528, 543–
47 (2015). And again, as Boone did with the older formulation of the pro-veteran canon, Brown similarly treated this
more recent “interpretive doubt” formulation as subsidiary
to the text and relevant context. In Brown, the Court declined to apply the canon because the statute was unambiguous. 513 U.S. at 117–18 (“The most, then, that the Government could claim . . . is the existence of an ambiguity . .
. (assuming that such a resolution would be possible after
applying the rule that interpretive doubt is to be resolved
in the veteran’s favor). But the Government cannot plausibly make even this claim here.” (citation omitted)).
What’s more, contrary to Judge O’Malley’s suggestion
that the pro-veteran canon in Brown did not rank below
descriptive canons, O’Malley Dissent at 14–16, the Court
in Brown concluded that the statute was not ambiguous by
applying a descriptive canon: the “presumption that a given
term is used to mean the same thing throughout a statute,”
which is “at its most vigorous when a term is repeated
within a given sentence.” 513 U.S. at 18. Brown came just
three years after St. Vincent’s Hospital similarly held for
the veteran based on a descriptive analysis of the statute.
502 U.S. at 218–22. There, the Court’s reasoning proceeded
in two steps. First, the Court announced that it would
“start with the text.” Id. at 218. Second, it assessed the
“context.” Id. at 221 (“[W]e do nothing more, of course, than
follow the cardinal rule that a statute is to be read as a
whole, since the meaning of statutory language, plain or
not, depends on context.” (citation omitted)). In a footnote,
the Court in St. Vincent’s Hospital surmised that even if a
neighboring subsection of the statute “unsettled the significance of [the provision’s] drafting,” the Court “would ultimately read the provision in [the veteran’s] favor.” Id. n.9.

59a
Accordingly, just as the Court has “declined to deem a
statute ‘ambiguous’ for purposes of lenity merely because
it was possible to articulate a construction more narrow
than that urged by the Government,” see Moskal, 498 U.S.
at 108, it stands to reason that we should decline to find
ambiguity for purposes of the pro-veteran canon merely because a veteran-friendly construction is possible. The proveteran canon—like the rule of lenity—”comes into operation at the end of the process of construing what Congress
has expressed, not at the beginning as an overriding consideration.” See Callanan v. United States, 364 U.S. 587,
596 (1961).8

8

Judge O’Malley attempts to distinguish the pro-veteran
canon from the rule of lenity by arguing that, while the rule
of lenity is a “judge-made tie breaker[] implementing judicial policy choices,” the pro-veteran canon is a “rule[] implementing congressional intent.” O’Malley Dissent at 18.
First, both canons are judge-made. Second, conceptualizing
and applying a broad notion of “congressional intent” at the
“liberal construction” level of generality is also a judicial
policy choice. See 3 Sutherland Statutory Construction
§ 58:1 (8th ed.) (“In cases of unresolvable ambiguity,
[courts] additionally may rely on the presumptions embodied by strict and liberal construction as tie-breakers of last
resort, a ‘thumb on the scale’ that allows them to fulfill
their adjudicatory mandate.” (footnote omitted)); id.
(“[S]trict and liberal approaches to statutory language are
normative, explicitly preferring certain interpretive results
over others.”). Indeed, resolving ambiguity with the proveteran canon instead of Auer in this case would have implemented one judicial policy choice over another. See Kisor
v. Shulkin, 880 F.3d 1378, 1379 (Fed. Cir. 2018) (O’Malley,
J., dissenting from denial of rehearing en banc) (“When
these two doctrines pull in different directions, it is Auer
deference that must give way.”).

60a
C. CONGRESS’S ACTIVE ROLE
Congress’s active engagement in this area of law is a
further reason we should constrain ourselves to apply the
pro-veteran canon only after descriptive tools do not yield
a best meaning.9 Even if we accept the theory that the proveteran canon is justified as a proxy for congressional intent, Congress’s undeniably active role in veterans’ benefits law mitigates the concern that we will frustrate Congress’s efforts by declining to apply at the outset a highly
generalized veteran-friendly policy that is above and beyond the specific policies expressed in the text.
If the canon’s predicate is Congress’s intent, one thing
that is clear about Congress’s intent in this area is that it
means to make very specific prescriptions, taking account
of competing policies, and to monitor their implementation
and actively adjust its laws as it deems necessary. Congress did not write a highly general law and leave the rest
to the judiciary (or the Secretary). Far from it. There are
few areas in which Congress has been so consistently proactive as it is here, in pursuit of its mission to ensure that
our veterans are cared for. Indeed, both the House and the
Senate have committees created exclusively for, and dedicated exclusively to, overseeing veterans’ affairs. Senator
Tester (MT), chairman of the Senate committee, has expressed that “Congress must hold the Department of Vet-

9

This part of my opinion is directed to underscoring the
proper order of analysis. Contrary to Judge O’Malley’s assertion, it is not an argument “not to consider the pro-veteran canon of construction when considering a less than
clear term.” See O’Malley Dissent at 11 n.3.

61a
erans Affairs (VA) accountable in delivering timely, quality, and robust care and benefits to all veterans.”10 Similarly, Senator Moran (KS), ranking member of that committee, has explained that the committee’s “top priority is
to make sure we take care of our veterans who have dedicated their lives to serving our country” and has stated his
intention to “work to make certain the U.S. Department of
Veterans Affairs (VA) implements the Congressional reforms laid out in the VA MISSION Act bringing the VA into
the 21st century and providing veterans with the best possible care and services.”11 And they have been busy. Indeed,
a quick search reveals that no fewer than 134 pieces of legislation originating in these two committees have been
signed into law over the last decade (i.e., during the six
most recent Congresses).12
Indeed, as we have previously pointed out, “Congress
has repeatedly passed legislation on veterans’ benefits, including legislation specifically overruling judicial and
agency interpretations of the veterans’ benefits statutes.”
Sears v. Principi, 349 F.3d 1326, 1330 (Fed. Cir. 2003). For
example, Congress enacted the Veterans Claims Assistance Act of 2000 (“VCAA”) to legislatively overturn a 1999
decision of the Court of Appeals for Veterans Claims,
thereby “eliminat[ing] the ‘well-grounded’ claim requirement” applied in that decision. Mayfield v. Nicholson, 499
F.3d 1317, 1319 (Fed. Cir. 2007); see also Webster v.
Shinseki, 428 F. App’x 976, 978 (Fed. Cir. 2011) (recogniz-

10

U.S. Senate Committee on Veterans’
https://www.veterans.senate.gov/about/chairman.
11
U.S. Senate Committee on Veterans’
https://www.veterans.senate.gov/about/ranking.
12
https://www.congress.gov/ (legislation search).

Aff.,
Aff.,

62a
ing that the “well-grounded claim” rule “has been legislatively overturned”).13 In other words, Congress has been
proactively working to get veterans’ issues right—including by intervening when it believes courts and agencies get
them wrong. This institutionalized system, therefore, suggests a less imperative need for our thumb on a scale that
Congress continuously monitors and calibrates.14
II. RESPONSES TO THE DISSENTS
I have several points of disagreement with the conceptions of the pro-veteran canon advanced by the dissenting
opinions in this case. First, the dissenting opinions disregard the hierarchy of interpretive tools—in particular, the
distinction between descriptive and normative canons. See,
e.g., Panel Dissent at 3 (asserting that “the pro-veteran
canon must be weighed alongside the other traditional

13

In the evidentiary context, Congress has expressly prescribed a scale-tipping rule in favor of veterans. 38 U.S.C.
§ 5107(b) (“When there is an approximate balance of positive and negative evidence regarding any issue material to
the determination of a matter, the Secretary shall give the
benefit of the doubt to the claimant.”). And in other contexts Congress has set forth a rule of statutory interpretation. See, e.g., 21 U.S.C. § 853(o) (statute involving criminal
forfeitures instructing that “[t]he provisions of this section
shall be liberally construed to effectuate its remedial purposes”). But even in the latter situation, the Court has explained that such an instruction “only serves as an aid for
resolving an ambiguity; it is not to be used to beget one.”
Reves v. Ernst & Young, 507 U.S. 170, 184 (1993) (cleaned
up). Notably, Congress has issued no such instruction here.
14
For further evidence on this point, see Judge O’Malley’s
detailed history of Congress’s activity in veterans law,
O’Malley Dissent at 8–10.

63a
tools” (emphasis added)); O’Malley Dissent at 18 (concluding that “the pro-veteran canon should be used alongside
traditional tools” (emphasis added)). For example, Judge
O’Malley faults the Majority for using “some, but not all,
canons of construction” and asserts that the Majority did
“not pretend to end its analysis with the language.” Id. at
19. But both of these concerns are addressed merely by recognizing that the interpretive tools the Majority applied
were descriptive, rather than normative—and therefore
were just a part of the Majority’s analysis of the language.
When these tools yielded a best meaning, there was no
need to reach the normative pro-veteran canon.
Second, placing the pro-veteran canon on par with descriptive canons departs from the Supreme Court’s textfirst rule, which is the basis for applying descriptive canons
before normative canons like the pro-veteran canon. Indeed, although Judge Reyna acknowledges that the canon
“cannot override plain text” and that “plain text defeats all
other tools of construction,” Panel Dissent at 21 & 22 n.13
(collecting cases), he appears to accept only one textual constraint: that the text not “preclude[]” or “expressly exclude”
the veteran’s interpretation. Id. at 22; see also O’Malley
Dissent at 17 (“Where differing plausible, reasonable interpretations of the terms of a regulation are possible, Congress has spoken: it wants veterans’ benefits to be administered in a ‘pro-claimant’ manner.” (emphasis added)). So
far as I can tell, this approach would permit a court to
adopt a veteran-friendly interpretation so long as it is not
expressly ruled out by the text—and even if it is less plausible than the textually derived best meaning of a provision. Because “most statutes are ambiguous to some degree” (at least, if the analysis stops short of a full evaluation of the context and focuses only on particular words in
isolation), see Muscarello v. United States, 524 U.S. 125,

64a
138 (1998), the approach advocated by my dissenting colleagues would displace the more balanced determinations
reflected in the statute as Congress chose to write it.
Third, and for similar reasons, I disagree that we should
consider the pro-veteran canon when determining
“whether interpretative doubt exists.” Panel Dissent at 3.
Presumably, that would mean that even if the text, context,
and descriptive canons yield a best meaning, the pro-veteran canon could inject doubt as to whether that meaning
is best—at which point the doubt would be resolved in the
veteran’s favor. In short, the pro-veteran canon could
trump the best meaning derived from the text. Again, this
departs from the Supreme Court’s insistence that the text
comes first.
Fourth, the dissenting opinions would apply the canon
as a liberal-construction principle (resembling the Boone
formulation). E.g., Panel Dissent at 24 (arguing that the
“governing statutes and regulations should always be construed liberally within the bounds of their text”); O’Malley
Dissent at 10 (arguing that Congress “wanted all aspects
of the [Veterans’ Judicial Review Act] to be liberally construed in favor of the veterans”). And if the pro-veteran
canon is simply a liberal-construction principle as my dissenting colleagues argue, this is further confirmation
that—for reasons already stated—it is best considered only
after a descriptive textual analysis does not yield a best
meaning. See supra Part I.B.1.
III. TENSION WITH CHEVRON AND AUER
Last, I recognize that the Supreme Court’s Chevron and
Auer frameworks present a difficult and unresolved challenge—as they in many cases will create tension with the
pro-veteran canon. This tension arises because both the
pro-veteran canon and these deference doctrines are triggered by ambiguity. For example, if the pro-veteran canon

65a
is used at step one of Chevron to resolve ambiguity in a
veteran’s favor, then step two of Chevron will never be
reached.15 This raises the question of how to decide what
gets triggered first. Although the Supreme Court has applied various canons at step one of Chevron—indicating
that some canons are “traditional tools” of interpretation
that belong at that step, Arangure, 911 F.3d at 339–40 (collecting cases), the Court did not attempt to address this difficulty in Brown or any other case involving the pro-veteran canon (including this one).16 Consequently, “[i]t is not
clear where the Brown canon fits within the Chevron
framework, or whether it should be part of the Chevron
analysis at all.” Heino v. Shinseki, 683 F.3d 1372, 1379 n.8
(Fed. Cir. 2012).
Whether a canon applies before deferring to an agency
likely depends on the character of the canon, measured
against the rationales underpinning the Chevron and Auer
frameworks. See generally Arangure, 911 F.3d at 339–42.
For example, there is “broad agreement” that canons which
“clearly and exclusively serve descriptive, rather than normative, purposes . . . belong in step one” of Chevron—which
“has the same goal: determining the meaning of the stat-

15

I note, however, that this tension arises only where the
ambiguity at issue is in the textual meaning of a statute or
regulation—not where a regulation simply fills a gap left
by Congress for agency discretion. See Terry v. Principi,
340 F.3d 1378, 1383 (Fed. Cir. 2003) (deferring under Chevron to fill a gap instead of applying the canon).
16
This difficulty is not limited to the pro-veteran canon.
For example, while the D.C. Circuit has prioritized the Indian canon over Chevron step two, the Ninth Circuit has
not. Compare Cobell v. Norton, 240 F.3d 1081, 1100–01
(D.C. Cir. 2001), with Rancheria v. Jewell, 776 F.3d 706,
713 (9th Cir. 2015).

66a
ute.” Id. at 340–41. Normative canons present harder issues. For normative canons triggered by ambiguity, the answer may depend on whether the ambiguity is of the type
where Congress has delegated its resolution to the courts
or an agency. See Barrett, supra, at 123 (explaining that
the rule of lenity may be justified under the theory that a
court’s “best understanding of Congress’s instructions is
that Congress left the problem to her”).
I do not attempt to resolve this quandary here as to the
pro-veteran canon. Further guidance is necessary to reconcile these competing doctrines. But setting aside the question of which doctrine gets triggered by an ambiguous statute first, it’s worth reiterating the rigorous interpretive
process that the Court has prescribed before finding ambiguity. On this point, the Court did not mince words in its
recent pronouncement about the term “ambiguous”: “when
we use that term, we mean it—genuinely ambiguous, even
after a court has resorted to all the standard tools of interpretation.” Kisor, 139 S. Ct. at 2414. A court must “exhaust” these “traditional tools,” finding ambiguity “only
when that legal toolkit is empty and the interpretive question still has no single right answer.” Id. at 2415. A court
therefore “cannot wave the ambiguity flag just because it
found the regulation impenetrable on first read.” Id. Rather, “hard interpretive conundrums, even relating to complex rules, can often be solved.” Id. Indeed, “[i]f a reviewing
court employs all of the traditional tools of construction,
the court will almost always reach a conclusion about the
best interpretation of the regulation at issue.” Id. at 2448
(Kavanaugh, J., concurring in the judgment). Then there is
“no reason or basis to put a thumb on the scale,” whether
in deference to an agency or in a veteran’s favor. See id.

67a
CONCLUSION
The Supreme Court has said that we are not at liberty
to merely assume that “any result consistent with . . . the
statute’s overarching goal must be the law” as some versions of a liberal-construction principle assume. Henson,
137 S. Ct. at 1725. We must “presume more modestly instead that the legislature says what it means and means
what it says.” Id. (cleaned up). Undoubtedly the “entire
[veterans-benefits] scheme is imbued with special beneficence from a grateful sovereign.” Bailey v. West, 160 F.3d
1360, 1370 (Fed. Cir. 1998) (Michel, J., concurring); see also
Martin v. O’Rourke, 891 F.3d 1338, 1352 (Fed. Cir. 2018)
(Moore, J., concurring) (“The men and women in these
cases protected this country and the freedoms we hold
dear. . . .”). Our first order of business, however, and often
our last, is to apply the properly understood words Congress chose for that scheme. It’s hard to see how fidelity to
those words “rends the overarching fabric of protection woven by Congress.” Panel Dissent at 3. The words are the
fabric. Consistent with the principles articulated above, we
should consider the pro-veteran canon only if, after exhausting all applicable descriptive tools in search of the
provision’s best meaning, a range of plausible interpretations remains, none of them fairly described as the best. I
concur in the denial of rehearing en banc.

68a

UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
JAMES L. KISOR,
Claimant-Appellant
v.
DENIS MCDONOUGH, SECRETARY OF
VETERANS AFFAIRS,
Respondent-Appellee
2016-1929
Appeal from the United States Court of Appeals for Veterans Claims in No. 14-2811, Senior Judge Alan G. Lance,
Sr.
HUGHES, Circuit Judge, with whom WALLACH, Circuit
Judge, joins, concurring in the denial of rehearing en banc.
I concur in the denial of en banc rehearing. I also agree
with much of what Chief Judge Prost has written and specifically join Part I.B–C and Part II of her opinion concurring in the denial of en banc rehearing. I write separately
to note my further views and, particularly, my agreement
with our court’s current precedent regarding the role of
Chevron and Auer in interpreting veterans’ benefits statutes.
In the years following Chevron, Gardner, and Auer, this
court has on numerous occasions decided appeals from denials of benefits in which the VA’s interpretation of a statutory or regulatory provision has been challenged by a veteran citing the pro-veteran canon. From these decisions, we

69a
have established a clear framework for interpreting statutory and regulatory provisions in the veterans’ benefits
context where the VA argues that its interpretation is owed
deference. That precedent is correct and does not warrant
rehearing in any aspect.
The first step, as in all cases where Chevron deference
is asserted, is to determine whether Congress has directly
spoken to the precise question at issue. This court has done
so by “first carefully investigat[ing] the matter to determine whether Congress’s purpose and intent on the question at issue is judicially ascertainable . . . by employing
the traditional tools of statutory construction.” Boyer v.
West, 210 F.3d 1351, 1355 (2000) (quoting Delverde, SrL v.
United States, 202 F.3d 1360, 1363 (Fed. Cir. 2000)). These
tools require “examin[ing] the statute’s text, structure, and
legislative history and apply[ing] the relevant canons of interpretation.” Id. If we determine that the statute “plainly
speaks to the issue,” that is the end of the analysis. Id. at
1352. This court has consistently held that the pro-veteran
canon does not apply at this juncture. Id. at 1355 (“A veteran ‘cannot rely upon the generous spirit that suffuses the
law generally to override the clear meaning of a particular
provision.’”) (quoting Smith v. Brown, 35 F.3d 1516, 1526
(Fed. Cir. 1994)). Instead, we have repeatedly stated that
we must first find a statutory provision ambiguous before
there can be “interpretative doubt” to be resolved in the
veteran’s favor. Nielson v. Shinseki, 607 F.3d 802, 808 n.4
(Fed. Cir. 2010) (collecting cases). But even then, we have
never looked first to the pro-veteran canon to resolve questions of ambiguity.
Instead, once we have determined that the statute is silent on the issue or is genuinely ambiguous, we then determine whether the VA has promulgated a reasonable interpretation that is owed deference, typically (though not exclusively) in the form of a duly published regulation. We

70a
then apply the same methodology as explained above, employing all the “standard tools of interpretation,” Kisor v.
Wilkie, 139 S.Ct. 2400, 2415 (2019), including “the text,
structure, history, and purpose of a regulation,” id. at 2415,
in determining whether that regulation has a plain meaning or whether it is genuinely ambiguous. See also O’Bryan
v. McDonald, 771 F.3d 1376, 1379 (Fed. Cir. 2014). If the
regulation is plain and a reasonable interpretation of the
ambiguous statute, then the VA is entitled to Chevron deference. Sears v. Principi, 349 F.3d 1326, 1330 (Fed. Cir.
2003); Degmetich v. Brown, 104 F.3d 1328, 1332 (Fed. Cir.
1997).
If we cannot discern the plain meaning of the regulation, we proceed to determine whether the VA’s interpretation of its regulation is owed deference under Auer. As the
Supreme Court explained in its decision remanding this
case, an agency’s interpretation is owed deference under
Auer only if it is reasonable, implicates the agency’s substantive expertise, and reflects the agency’s “fair and considered judgment” rather than merely a “convenient litigating position or post hoc rationalization.” Kisor, 139 S.Ct.
at 2417. If the VA’s interpretation satisfies each of these
prongs, then it is owed deference even over an alternative
interpretation that is arguably more generous to veterans.1

1

It is not clear—from either our precedent or the Supreme
Court’s limited discussions of the pro-veteran canon—
whether interpretative doubt is to be resolved in favor of
the specific veteran before the court in a given appeal or in
favor of veterans in general. To the extent that the pro-veteran canon contemplates the interests of the latter, the
agency is in the better position vis-à-vis this court to determine how to interpret its regulations to favor veterans
seeking or receiving benefits as a group.

71a
We have previously, and correctly in my view, held that
if the conditions for either Chevron or Auer deference are
met, then the VA is entitled to deference, without resort to
the pro-veteran canon. See, e.g., Smith v. Shinseki, 647
F.3d 1380, 1385 (Fed. Cir. 2011); Smith v. Nicholson, 451
F.3d 1344, 1349–51 (Fed. Cir. 2006); Sears, 349 F.3d at
1331–32. The Supreme Court’s decision in Kisor does not
require alteration of this precedent, but simply clarifies the
conditions for application of Auer.
If the VA’s interpretation fails to satisfy any of the requirements for deference, then the interpretative doubt in
the statute or regulation has not been resolved by the
agency and the pro-veteran canon requires that we resolve
the ambiguity in favor of the veteran. See Hudgens v.
McDonald, 823 F.3d 630, 639 (Fed. Cir. 2016). To hold that
the pro-veteran canon applies at any earlier step in the
Chevron or Auer analysis is to hold that the VA, alone
among the executive agencies, is not entitled to deference
in interpreting its regulations and the statutes Congress
has charged it with administering.2 This position would be
anomalous to say the least and has been flatly rejected by
this court. Sears, 349 F.3d at 1331–32; Nat’l Org. of Veterans Advocates, Inc., v. Sec’y of Veterans Affairs, 809 F.3d
1359, 1363 (Fed. Cir. 2016).

2

The late Justice Scalia, in an address to the 12th CAVC
Judicial Conference in 2013, suggested that Chevron and
the pro-veteran canon are incompatible and opined that
this court had correctly rejected the view that Chevron does
not apply to the VA. Chadwick J. Harper, Give Veterans the
Benefit of the Doubt: Chevron, Auer, and the Veteran’s
Canon, 42 HARV. J.L. & PUB. POL’Y 950 n.128 (citing Ct.
of Appeals for Veterans Claims Bar Assoc., Justice Scalia
Headlines the Twelfth CAVC Judicial Conference, VETERANS L.J. 1, 1 (Summer 2013)).

72a
Of course, most of these issues need not be resolved
here. The panel majority concluded that the regulation at
issue was clear and therefore there was no need to reach
any questions of deference or the pro-veteran canon. I do
not believe that regulation-specific determination warrants en banc rehearing and concur in the denial.

73a

UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
JAMES L. KISOR,
Claimant-Appellant
v.
DENIS MCDONOUGH, SECRETARY OF
VETERANS AFFAIRS,
Respondent-Appellee
2016-1929
Appeal from the United States Court of Appeals for Veterans Claims in No. 14-2811, Senior Judge Alan G. Lance,
Sr.
DYK, Circuit Judge, concurring in the denial of rehearing
en banc.
The role of the veteran’s canon in statutory and regulatory interpretation is an important issue. If that issue were
presented in this case, I would generally agree with Chief
Judge Prost’s analysis. But, in my view, that canon simply
is not relevant to the disposition of this case. Resolution of
the interpretative issue here does not depend on the application of the veteran’s canon or other canons of construction, but on a plain reading of the language of the regulation.
The regulation states that “if VA receives or associates
with the claims file relevant official service department
records that existed and had not been associated with the

74a
claims file when VA first decided the claim, VA will reconsider the claim.” 38 C.F.R. § 3.156(c)(1). The question is
what constitutes “relevant” records.
I.
Here, there was an original rating decision in 1983
denying benefits for post-traumatic stress disorder on the
basis that the veteran was not diagnosed with PTSD. See
J.A. 22–23. There was a later decision in 2007, concluding
that the veteran did have PTSD and granting benefits
based in part on service department records received by the
VA after the original 1983 decision because these records
verified an in-service stressor (an additional requirement
for a PTSD award). See Majority Op. 6–7; J.A. 30–34; see
also AZ v. Shinseki, 731 F.3d 1303, 1310 (Fed. Cir. 2013)
(listing elements for service connection for a PTSD claim).
An earlier effective date under 38 C.F.R. § 3.156(c) was
denied on the grounds that the newly received service department records were not relevant. The Board and the
Veterans Court concluded that “relevant” records are those
relevant to the earlier decision’s basis for denying benefits,
and here, the records were not relevant because they did
not pertain to the basis of the 1983 denial of benefits, which
was the lack of a PTSD diagnosis rather than the lack of a
stressor. See J.A. 3–4, 90–91.
The panel agrees that the term “relevant” for the purposes of 38 C.F.R. § 3.156(c)(1) should be interpreted consistently with 38 U.S.C. § 5103A, the statutory basis for the
VA’s duty to assist. See Majority Op. 13; Dissenting Op. 8,
10. Section 5103A provides that “[t]he [VA] shall make reasonable efforts to assist a claimant in obtaining evidence
necessary to substantiate the claimant’s claim for a benefit
under a law administered by the [VA].” 38 U.S.C.
§ 5103A(a)(1) (emphasis added). As the panel majority appears to admit, “[r]elevant records for the purpose of

75a
§ 5103A are those records that relate to the injury for
which the claimant is seeking benefits and have a reasonable possibility of helping to substantiate the veteran’s
claim.” Golz v. Shinseki, 590 F.3d 1317, 1321 (Fed. Cir.
2010) (emphasis added); see Majority Op. 13. In other
words, relevant records are those that help in “substantiat[ing] the claimant’s claim for a benefit,” 38 U.S.C.
§ 5103A(a)(1), not just those that “undermin[e]” some prior
decision that denied that benefit, see Majority Op. 10. Short
of an explicit statutory definition of “relevant,” it can
hardly be clearer what “relevant” means.
Similarly, the language of 38 C.F.R. § 3.156(c) makes
clear that relevant records are those relevant to the decision awarding compensation—not the prior decision. The
regulation states that the earlier decision is set aside and
an earlier effective date is granted if “[a]n award” is “made
based all or in part” on “relevant official service department records that existed and had not been associated with
the claims file when VA first decided the claim.” 38 C.F.R.
§ 3.156(c)(1), (3).
The language of the regulation does not restrict the
availability of an earlier effective date only to records that
speak to the basis for the prior decision. If the agency intended such a restriction, the regulation could easily state
that “[a]n award made based all or in part on records relevant to the ground of the prior decision” qualifies for an
earlier effective date. Instead, the rule makes relevancy
turn on whether the award was “made based all or in part”
on the records. 38 C.F.R. § 3.156(c)(3). Thus, plain language leads to the rather obvious interpretation of the regulation—that it refers to records relevant to the service
connection claim.

76a
II.
There is language in the panel opinion that appears to
reject the correct interpretation of “relevant,” see, e.g., Majority Op. 12–13, but I read the panel opinion as taking a
more nuanced view of what is relevant. The panel holds
that service records are only not relevant if they relate to
“a matter that was not in dispute” (i.e., conceded) in the
earlier VA decision. Majority Op. 15.1 Here, the panel concluded that the issue to which the records relate (i.e.,
whether there was an in-service stressor) was not in dispute; hence, the records are not relevant. The dissent and
majority appear to differ as to whether the stressor was in
dispute, see id.; Dissenting Op. 16, and it may be that the
majority is incorrect, but that is hardly a ground for en
banc review. Nor does the majority’s view that records
must relate to a disputed issue (based on the plain language of 38 C.F.R. § 3.156(c) that the award must be “based
all or in part on” the newly discovered records, see Majority
Op. 12–13), constitute a matter warranting en banc review.
Service department records relevant to a claim for benefits
will continue to provide grounds for reconsideration (and
an earlier effective date) if they relate to a disputed claim

1

The majority’s opinion states:
We therefore conclude that the Board did not err in
holding that the records cited by Mr. Kisor were not
“relevant” because they did not pertain to the basis
of the 1983 denial, the lack of a diagnosis of PTSD.
The records added nothing to the case because Mr.
Kisor has not shown that they bore, directly or indirectly, on any matter relating to entitlement to service connection for PTSD, other than a matter that
was not in dispute: the presence of an in-service
stressor.

Majority Op. 15.

77a
element. The role of the veteran’s canon, not being a pertinent issue here, must await another day and another case.

78a

UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
JAMES L. KISOR,
Claimant-Appellant
v.
DENIS MCDONOUGH, SECRETARY OF
VETERANS AFFAIRS,
Respondent-Appellee
2016-1929
Appeal from the United States Court of Appeals for Veterans Claims in No. 14-2811, Senior Judge Alan G. Lance,
Sr.
O’MALLEY, Circuit Judge, with whom NEWMAN, MOORE,
and REYNA, Circuit Judges, join, dissenting from the denial
of the petition for rehearing en banc.
This case returned to us after a trip to the Supreme
Court. I am surprised that the panel majority does not believe the Supreme Court’s opinion compels judgment in Mr.
Kisor’s favor. I am also surprised by the analytical hoops
through which the panel majority has jumped to reinforce
its decision to rule against the veteran. And that the majority went to such great lengths to do so despite the remedial context in which Mr. Kisor’s claim arose.
The procedural history of this case is important to understanding how we have arrived at this point and why we
need to retreat from it.

79a
The veteran’s case turns on the meaning of the word
relevant in 38 C.F.R. § 3.156(c)(1). If the term is given its
common and well-understood meaning, the veteran likely
is entitled to an additional twenty-six years of benefits. If
the term is given the contorted meaning now dictated by
the majority, he decidedly is not.
The panel majority initially held that the word “relevant” in § 3.156(c)(1) is ambiguous. See Kisor v. Shulkin,
869 F.3d 1360, 1367 (Fed. Cir. 2017) (“Kisor I”). In fact, it
concluded it was insolubly so. The panel said that “[i]n our
view, the regulation is vague as to the scope of the word,
and canons of construction do not reveal its meaning.” Id.
at 1367 (emphasis added). More specifically, it explained
“§ 3.156(c)(1) does not specify whether ‘relevant’ records
are those casting doubt on the agency’s prior rating decision, those relating to the veteran’s claim more broadly, or
some other standard.” Id. It concluded that “[t]his uncertainty in application suggests that the regulation is ambiguous.” Id. The panel then emphasized that the parties’
“varying, alternative definitions” of the term “underscore[d] § 3.156(c)(1)’s ambiguity” because neither party’s
position was unreasonable. Id. at 1367–68 (“Both parties
insist that the plain regulatory language supports their
case, and neither party’s position strikes us as unreasonable.”).
Reasoning that the Board’s interpretation of the regulation was not “plainly erroneous or inconsistent” with the
VA’s regulatory framework, the panel concluded that the
only way to resolve the parties’ dispute was to rely on the
principle of deference outlined in Auer v. Robbins, 519 U.S.
452 (1997). Id. at 1369. It thus concluded that the judgemade policy of giving deference to an agency’s interpretation of its own regulations meant the insoluble interpretive
tie with which it was faced went to the VA. The veteran
lost.

80a
Notably, before finding an ambiguity in the regulatory
text and resorting to Auer, the panel did not consider the
pro-veteran canon—the “rule that interpretive doubt is to
be resolved in the veteran’s favor,” Brown v. Gardner, 513
U.S. 115, 117–118 (1994); the “canon that the provisions
for benefits to members of the armed services are to be construed in the beneficiaries’ favor,” Henderson ex rel. Henderson v. Shinseki, 562 U.S. 428, 441 (2011) (quoting King
v. St. Vincent’s Hosp., 502 U.S. 215, 220–221, n.9 (1991)).
Mr. Kisor sought rehearing en banc before our court, which
we denied, over the objection of three of our judges. Kisor
v. Shulkin, 880 F.3d 1378 (Fed. Cir. 2018). Mr. Kisor then
sought certiorari, asking the Supreme Court to overrule
Auer, or at least clarify that resort to Auer is inappropriate
where the pro-veteran canon of construction could resolve
the ambiguity in the veteran’s favor.
The Supreme Court granted cert on the first question.
See Kisor v. Wilkie, 139 S. Ct. 657 (2018) (mem.). While the
Supreme Court refused to do away with Auer, it dramatically circumscribed the circumstances in which a court may
resort to it. Kisor v. Wilkie, 139 S. Ct. 2400, 2414 (2019)
(“Kisor II”). Importantly, the Court explained that, before
a regulation may be deemed “genuinely ambiguous”
enough for Auer deference to come into play, “all the ‘traditional tools’ of construction” must be employed in assessing
the regulation. Id. at 2415 (emphasis added). It explained
that “only when that legal toolkit is empty and the interpretive question still has no single right answer can a judge
conclude that it is ‘more [one] of policy than of law.’” Id.
(quoting Pauley v. BethEnergy Mines, Inc., 501 U.S. 680,
696 (1991)).
The case was then remanded. It would seem that the
resolution on remand would have been easy. The panel
originally found the regulation insolubly ambiguous with-

81a
out having considered the pro-veteran canon of construction. Applying that canon in this court’s “legal toolkit” to a
circumstance in which there were two reasonable constructions of the regulation, and without the option of Auer, the
result should have been that the veteran’s proposed construction prevailed. The veteran should have won.
Surprisingly, the majority instead concluded that the
regulation is not ambiguous at all. Kisor v. Wilkie, 969 F.3d
1333, 1338 (Fed. Cir. 2020) (“Kisor III”). According to the
majority at that point, “relevant” “ha[d] only one reasonable meaning”—the one proffered by the VA. Id. at 1338–
1339 (“[T]he record must speak to a matter in issue, in
other words, a matter in dispute.”). The majority never
mentioned the “uncertainty in application” with which it
had been concerned in Kisor I. It simply concluded that it
no longer thought Mr. Kisor’s proposed definition struck it
as reasonable because it said the service records did not
speak “directly or indirectly” to his non-diagnosis of PTSD.
Id. at 1340. The panel majority conceded that the new records contained substantial additional information regarding Mr. Kisor’s combat experiences during Operation
Moon. Id. at 1341. Indeed, it conceded that the records contained “credible supporting evidence that the claimed
stressor occurred.” Id. (citation omitted). But it still somehow found the records irrelevant. Id. The majority then
concluded that, because it no longer found the regulation
ambiguous, it did not need to consider the pro-veteran
canon of construction. Id. at 1342. According to the majority, the pro-veteran canon “only applies in the situation
where the statute or regulation at issue is ambiguous.”1 Id.

1

The Concurrence to denial of en banc by Chief Judge
Prost (“Prost Concurrence”) questions whether the pro-veteran canon should apply during regulatory interpretation.
Prost Concurrence at 3 n.2. But nothing about the regula-

82a
(quoting Paralyzed Veterans of Am. v. Sec’y of Veterans
Affs., 345 F.3d 1334, 1340 (Fed. Cir. 2003)). The veteran
lost again.
Mr. Kisor again petitioned our court to rehear this case
en banc. See Pet. for Reh’g En Banc, Kisor v. McDonough,
No. 16-1929 (Fed. Cir. Sept. 28, 2020), ECF No. 76. In doing
so, he had the support of several amici who, alongside him,
contended that the pro-veteran canon of construction was
an important interpretive canon that was to be employed
at step one of the analysis set forth in Chevron, U.S.A., Inc.
v. Natural Resources Defense Council, Inc., 467 U.S. 837
(1984)—that is, to be applied along the way to determining
whether a true ambiguity exists within the meaning of Kisor II. In response, the panel majority pulled Kisor III back.
It has now issued a modified opinion with a third set of rationales for its ruling against the veteran. See Majority
Modified Op. (“Kisor IV”).
In its modified opinion, the panel majority now asserts
that the pro-veteran canon of construction is not to be considered unless there is “interpretive doubt” in the panel’s
mind after “use of ordinary textual analysis tools,” which it
says do not include the pro-veteran canon. Id. at 16. And,
tory context undermines the pro-veteran canon’s core justification—the special solicitude for those persons who
“have been obliged to drop their own affairs to take up the
burdens of the nation.” Boone v. Lightner, 319 U.S. 561, 575
(1943). And “[i]t is axiomatic that an administrative
agency’s power to promulgate legislative regulations is limited to the authority delegated by Congress.” Bowen v.
Georgetown Univ. Hosp., 488 U.S. 204, 208 (1988). We have
never differentiated between the interpretive exercise employed at the statutory level and that employed at the regulatory level. Neither has the Supreme Court. I see no reason why we should do so now.

83a
the majority states that, using such tools, it finds that “relevant” records means records that are “relevant to the issue that was dispositive against the veteran in the VA adjudication of the claim sought to be reconsidered and, in
that way, bear on the outcome of the case.” Id. at 9. The
panel majority concludes once more that Mr. Kisor’s service
records do not satisfy that definition of relevance. The veteran loses again.
Judge Reyna’s dissent from Kisor IV explains in detail
why, on this record—where the examiner originally found
the absence of PTSD in part due to skepticism about what
Mr. Kisor claimed about his in-service stressors—evidence
of in combat and other substantial in-service stressors
must certainly be relevant to his PTSD diagnosis. See Kisor
IV Dissent Modified Op. at 15–20. PTSD is a differential
diagnosis after all, that turns, in large measure, on the nature and existence of identified stressors. The majority’s effort to render in-service records of those stressors irrelevant because the denial of Mr. Kisor’s claim for benefits
was premised on the absence of a diagnosis of PTSD and
not on the absence of an in-service connection to his alleged
disability is mental gymnastics. Where skepticism that
stressors existed resulted in a non-diagnosis of PTSD, detailed records cataloging such stressors must certainly be
“relevant” to that non-diagnosis, under any construction of
that term. I defer to Judge Reyna’s thoughtful discussion
of that factual point in his panel dissent.
I write separately to address (1) the panel majority’s
dismissive treatment of the pro-veteran canon of construction and (2) emphasize that the panel’s tortured definition
of “relevant” in § 3.156(c)(1) is out of step with all common
understandings of that term and is unsupported by any
meaningful text-based interpretive analysis. I believe the
veteran should win this time.

84a
I.
The pro-veteran canon of construction is not meant to
be an afterthought. It is a tool in the interpretive toolkit
that aids in gleaning congressional intent where the plain
text of the statute or regulation does not clearly answer the
question at hand.2 The pro-veteran canon has occupied a
place in Supreme Court jurisprudence for almost eighty
years. See, e.g., Boone v. Lightner, 319 U.S. 561, 575 (1943)
(“The Soldiers’ and Sailors’ Civil Relief Act is always to be
liberally construed to protect those who have been obliged
to drop their own affairs to take up the burdens of the nation.”); see also Fishgold v. Sullivan Drydock & Repair
Corp., 328 U.S. 275, 285 (1946) (“Our problem is to construe the separate provisions of the [Selective Service] Act
as parts of an organic whole and give each as liberal a construction for the benefit of the veteran as a harmonious interplay of the separate provisions permits.”).
It is against this common law backdrop that Congress
passed the Veterans Judicial Review Act (“VJRA”). Veterans Judicial Review Act, Pub. L. No. 100–687, § 301, 102
Stat. 4105, 4113–22 (1988) (codified as renumbered at 38
U.S.C. §§ 7251–92); see King v. St. Vincent’s Hosp., 502
U.S. 215, 221 n.9 (1991) (stating expressly that the Supreme Court presumes that Congress legislates with an
understanding of the pro-veteran “interpretive principle[]”)
(citing McNary v. Haitian Refugee Ctr., Inc., 498 U.S. 479,
496 (1991) (“It is presumable that Congress legislates with
knowledge of our basic rules of statutory construction. . .
.”)); see also Lofton v. West, 198 F.3d 846, 850 (Fed. Cir.

2

“We’re all textualists now.” Harvard Law School, The Antonin Scalia Lecture Series: A Dialogue with Justice Elena
Kagan on the Reading of Statutes, YOUTUBE (Nov. 25,
2015) https://www.youtube.com/watch?v=dpEtszFT0Tg.

85a
1999) (“Congress legislates against a common law background . . . .”); Astoria Fed. Sav. & Loan Ass’n v. Solimino,
501 U.S. 104, 108 (1991) (“[W]here a common-law principle
is well established . . . the courts may take it as given that
Congress has legislated with an expectation that the principle will apply except ‘when a statutory purpose to the contrary is evident.’”) (citing Isbrandtsen Co. v. Johnson, 343
U.S. 779, 783 (1952)).
Congress created the Veterans Administration (the
agency that preceded the VA) in 1930, see Act of July 3,
1930, Pub. L. No. 71-536, ch. 863, § 1, 46 Stat. 1016, and
initially prohibited judicial review of the agency’s decisions
concerning veterans’ benefits, see Act of Mar. 20, 1933, ch.
3, § 5, 48 Stat. 9 (codified as amended at 38 U.S.C. § 211(a)
(1988)) (repealed 1988). The VA decisions concerning veterans’ benefits existed in a state of “splendid isolation”
from judicial review. Brown, 513 U.S. at 122 (citing H.R.
Rep. No. 100–963, at 10 (1988), reprinted in 1988
U.S.C.C.A.N. 5782, 5791). Congress changed that in the
VJRA, however, expanding the scope of judicial review concerning veterans’ benefits in two key aspects. Veterans Judicial Review Act, § 301. First, for veterans challenging
their benefit awards, the VJRA established three levels of
appeal: (1) the Court of Veterans Appeals (an Article I court
the VJRA created), which has “exclusive jurisdiction to review decisions of the Board of Veterans’ Appeals,” 38
U.S.C. § 7252(a); (2) our court, which has “exclusive jurisdiction to review and decide any challenge to the validity of
any statute or regulation or any interpretation thereof”
(such as the regulation at issue in this case, 38 C.F.R.
§ 3.156(c)(1)), 38 U.S.C. § 7292(c); and (3) the Supreme
Court, 38 U.S.C. § 7292(c). Second, for veterans dissatisfied
with VA regulations and rules concerning veterans’ benefits, the VJRA allows for direct challenges to our court. See
38 U.S.C. § 502. Congress created this two-step opportunity for review “for the purpose of ensuring that veterans

86a
were treated fairly by the government and to see that all
veterans entitled to benefits received them . . . .” Barrett v.
Nicholson, 466 F.3d 1038, 1044 (Fed. Cir. 2006).
Congress also codified the VA Secretary’s duty to assist.
Veterans’ Judicial Review Act, Pub. L. No. 100–687 § 103,
102 Stat. 4106 (1988) (codified at 38 U.S.C. § 3007(a)
(1988)) (“The Administrator shall assist such a claimant in
developing the facts pertinent to the claim.”). Prior to the
VJRA’s passage, Congress imposed no such statutory duty,
and the Secretary’s obligation to assist veterans make out
their benefit claims only existed to the extent granted by
regulation. See, e.g., 38 C.F.R. §§ 3.102, 3.103 (1988). The
codification of the Secretary’s “duty to assist” removed the
VA’s ability to revise its regulations to strip veterans of this
right or to receive Auer deference for any narrow interpretation of that right. These beneficent changes to provide
greater remedial treatment to veterans in acknowledgement of their service to this country were just the beginning.
The VJRA is replete with provisions designed to make
it easier for veterans to obtain benefits and to challenge
denial of such benefits. The development of this veteranfriendly scheme and its remedial nature was the very raison d’être for passage of the VJRA. As we noted in Hodge
v. West, “even in creating judicial review in the veterans
context, Congress intended to preserve the historic, proclaimant system.” 155 F.3d 1356, 1363 (Fed. Cir. 1998).
There, we cited the VJRA’s legislative history discussing
Congress’s desire for the veterans’ benefits system to remain “pro-claimant”:
Each year, the Veterans’ Administration (VA) processes approximately 5 million claims. In most
cases, claimants submit their own applications without assistance. If a claimant desires advice or other

87a
help, VA provides specially-trained personnel to answer inquiries and assist in the submission of the
claim. VA’s medical facilities often serve as an important referral source, and the major veterans service organizations also furnish claims assistance by
trained specialists at no charge.
Congress has designed and fully intends to maintain
a beneficial non-adversarial system of veterans benefits. This is particularly true of service-connected
disability compensation where the element of cause
and effect has been totally by-passed in favor of a
simple temporal relationship between the incurrence of the disability and the period of active duty.
I[m]plicit in such a beneficial system has been an evolution of a completely ex-parte system of adjudication
in which Congress expects VA to fully and sympathetically develop the veteran’s claim to its optimum before deciding it on the merits. Even then, VA is expected to resolve all issues by giving the claimant the
benefit of any reasonable doubt. In such a beneficial
structure there is no room for such adversarial concepts as cross examination, best evidence rule, hearsay evidence exclusion, or strict adherence to burden
of proof.
H.R. Rep. No. 100–963, at 13 (1988), reprinted in 1988
U.S.C.C.A.N. 5782, 5794–95 (emphasis added).
We need not guess the congressional intent behind the
VJRA; Congress told us by legislating against the backdrop
of the pro-veteran canon of construction, crafting a detailed
remedial statutory scheme, and expressly affirming its beneficent purpose in the Act’s legislative history. It wanted
all aspects of the Act to be liberally construed in favor of
the veterans.

88a
Congress asked the VA to effectuate this intent by
promulgating regulations designed to do so. The text of 38
U.S.C. § 501 provides the VA Secretary with the “authority
to prescribe all . . . regulations with respect to the nature
and extent of proof and evidence and the method of taking
and furnishing them in order to establish the right to benefits under such laws. . . .” 38 U.S.C. § 501(a)(1). Under this
rulemaking authority, the VA Secretary promulgated 38
C.F.R. § 3.156, which generally allows a veteran to reopen
a previously denied claim when “new and material evidence” surfaces. See 38 C.F.R. § 3.156(a). Section (c) of this
regulation, at issue here, states an exception to this general
rule by requiring the VA to reconsider a veteran’s previously denied claim when “relevant official service department records that existed and had not been associated with
the claims file when VA first decided the claim” come to
light, regardless of whether they are “new and material.”
38 C.F.R. § 3.156(c)(1) (noting that this section applies
“notwithstanding paragraph (a)”). Thus, we are not only
dealing with a remedial statute, we are dealing with a regulation designed to help right administrative wrongs. Our
court has recognized that “courts are to construe remedial
statutes liberally to effectuate their purposes.” Smith v.
Brown, 35 F.3d 1516, 1525–26 (Fed. Cir. 1994) (citing King
v. St. Vincent’s Hosp., 502 U.S. 215, 221 n.9 (1991) and
Coffy v. Republic Steel Corp., 447 U.S. 191, 196 (1980)), superseded on other grounds by 38 U.S.C. § 7111. That includes remedial regulations.3

3

The Prost Concurrence argues that the very fact that Congress has worked hard over the years to protect veterans is
reason not to consider the pro-veteran canon of construction when considering a less than clear term in a statute or
regulation. Prost Concurrence at 14. That cannot be right.
Congress cannot anticipate every linguistic debate over the
terms of a statute, and certainly cannot anticipate debates

89a
The Supreme Court has commanded as much in multiple contexts. See, e.g., Socony-Vacuum Oil Co. v. Smith, 305
U.S. 424, 431 (1939) (“[R]emedial legislation for the benefit
and protection of seamen has been liberally construed to
attain that end.”); McDonald v. Thompson, 305 U.S. 263,
266 (1938) (“[T]he [Motor Carrier] Act is remedial and to
be construed liberally. . . .”); see also United States v. Merriam, 263 U.S. 179, 188 (1923) (“If the words are doubtful,
the doubt must be resolved against the government and in
favor of the taxpayer.”) (citing Gould v. Gould, 245 U.S.
151, 153 (1917)); see also Bowers v. New York & Albany
Lighterage Co., 273 U.S. 346, 350 (1927) (“The provision is
a part of a taxing statute; and such laws are to be interpreted liberally in favor of the taxpayers.”); see also United
Dominion Indus., Inc. v. United States, 532 U.S. 822, 839
(2001) (Thomas, J., concurring) (“At a bare minimum, in
cases such as this one, in which the complex statutory and
regulatory scheme lends itself to any number of interpretations, we should be inclined to rely on the traditional
canon that construes revenue-raising laws against their
drafter.”); see also Christopher v. SmithKline Beecham
Corp., 567 U.S. 142, 163, 166 (2012) (interpreting regulations implementing the Fair Labor Standards Act (“FLSA”)
against the backdrop of the congressional intent behind
FLSA—i.e., to protect low wage employees).
Veterans deserve no less protection than low wage employees or taxpayers. See, e.g., United States v. Oregon, 366
U.S. 643, 647 (1961) (“The solicitude of Congress for veter-

regarding the meaning of not-yet drafted regulations. It is
because Congress drafts veterans legislation against the
backdrop of the pro-veteran canon that Congress does not
need to be clairvoyant in order to see that its intent to benefit veterans can be effectuated when parties have legitimate debates regarding terms employed.

90a
ans is of long standing.”); Henderson, 562 U.S. at 440 (noting that Congress’s longstanding solicitude for veterans “is
plainly reflected in the VJRA, as well as in subsequent laws
that ‘place a thumb on the scale in the veteran’s favor in
the course of administrative and judicial review of VA decisions.’”) (quoting United States v. Oregon, 366 U.S. at
647); Shinseki v. Sanders, 556 U.S. 396, 412 (2009) (“[W]e
recognize that Congress has expressed special solicitude
for the veterans’ cause. . . . A veteran, after all, has performed an especially important service for the Nation, often at the risk of his or her own life. And Congress has
made clear that the VA is not an ordinary agency. Rather,
the VA has a statutory duty to help the veteran develop his
or her benefits claim.”) (quoting Veterans Claims Assistance Act of 2000, 38 U.S.C. § 5103A). Despite all of this,
and the apparent recognition that deferring consideration
of the pro-veteran canon until after an ambiguity is found
would be inconsistent with the Supreme Court’s directive
in Kisor II to consider all canons of construction before finding an ambiguity, the panel majority charts a new course,
with a familiar end.
II.
The majority has again modified its reasoning concerning the application of the pro-veteran “interpretive principle[].” King, 502 U.S. at 221 n.9; see Kisor IV Majority Modified Op. As noted, the Kisor IV majority now reasons that
the pro-veteran canon does not apply unless there is “interpretive doubt” after the “use of ordinary textual analysis
tools,” which do not include the pro-veteran canon of construction. Id. at 16. I believe the majority’s conclusion in
Kisor IV is just as problematic as its challenged conclusion
in Kisor III, if not more so.
As a threshold matter, I believe the majority’s shift from
relying on “ambiguity” in Kisor III to “interpretive doubt”

91a
in Kisor IV to avoid applying the pro-veteran canon is a
distinction without a difference. There is no discernible
daylight between these terms. See, e.g., Nat’l Org. of Veterans’ Advocs., Inc. v. Sec’y of Veterans Affs., 260 F.3d 1365,
1378 (Fed. Cir. 2001) (“[W]hen a statute is ambiguous, interpretive doubt is to be resolved in the veteran’s favor.”
(internal quotation omitted)); compare Doubt, v., OED
ONLINE, https://www.oed.com/view/Entry/57078 (last visited Apr. 14, 2021) (defining “doubt” as “[t]o be in doubt or
uncertainty; to be wavering or undecided in opinion or belief”)
with
Ambiguity,
n.,
OED
ONLINE,
https://www.oed.com/view/Entry/6144 (last visited Apr. 14,
2021) (defining “ambiguity” as “originally and chiefly with
reference to language: the fact or quality of having different
possible meanings; capacity for being interpreted in more
than one way; (also) lack of specificity or exactness”). The
entire point of statutory construction is to interpret text
and give effect to congressional intent.
The majority cites nothing in support of its contention
that “ordinary textual analysis tools” include only those
narrowly subscribed by the majority. It cites only Brown v.
Gardner for its decision to remove the pro-veteran canon—
and apparently numerous other canons—from the interpretive toolkit it employs. But Brown does not hold that the
pro-veteran canon is only an after the fact inquiry, or, as
the Prost Concurrence asserts, must be relegated, like the
rule of lenity, to “the end of the analysis.”4 Prost Concurrence at 12. Indeed, quite the contrary. The language in
4

Despite the Supreme Court’s opinion in this very case implying the opposite, the Concurrence by Judge Hughes
(“Hughes Concurrence”) asserts that Chevron and Auer
deference must still trump the pro-veteran canon. The
Prost Concurrence holds open the same possibility. That is
flatly inconsistent not only with Kisor II, but with the Supreme Court’s directive that Chevron and Auer do not even

92a
Brown from which the Kisor IV majority’s “interpretive
doubt” language is plucked only refers to what the government “at most could claim” and appears just before the
Court concludes that “the Government cannot plausibly
make even this claim here.” Brown, 513 U.S., 117–118 (emphasis added). In full, it reads,
The most, then, that the government could claim on
the basis of this term is the existence of an ambiguity to be resolved in favor of a fault requirement (assuming that such a resolution would be possible after applying the rule that interpretive doubt is to be
resolved in the veteran’s favor . . . .).
Id. (emphasis added). Nowhere does the Court hold what
the panel claims it holds. It does not say that the parts of a
“usual textual analysis”—other than the plain language of
the words used—do anything other than help resolve “interpretive doubt.” And, it does not say that the pro-veteran
canon is anything other than an interpretive canon. All
Brown did was emphasize that the pro-veteran canon of
construction is an additional tool in the “usual” tool kit

enter the picture until it is clear that the canons do not
supply the answer. Epic Sys. Corp. v. Lewis, 138 S. Ct.
1612, 1630 (2018) (quoting NLRB v. Alt. Ent., Inc., 858 F.3d
393, 417 (6th Cir. 2017), abrogated by Epic Sys. Corp., 138
S. Ct. 1612). Quite simply, the “canons trump deference.”
Kenneth A. Bamberger, Normative Canons in the Review
of Administrative Policymaking, 118 Yale L.J. 64, 77
(2008). Given the agency context in which the canon arises,
relegating its consideration until after Chevron and Auer
deference would render it a nullity.

93a
when the statute or regulation being interpreted is embedded in a remedial statute whose congressional purpose is
to benefit veterans.5
Importantly, moreover, Brown did not overrule Boone
and its progeny and create a new, more stingy, “Brown formulation” of the pro-veteran canon. Prost Concurrence at
12. Indeed, in Brown, the Court cited to King, see Brown,
513 U.S. at 118 (citing King, 502 U.S. at 220–221, n.9),
which in turn cited to Fishgold, see King, 502 U.S. at 220–
221, n.9 (quoting Fishgold, 328 U.S. at 285), which, in turn,
relied upon Boone, see Fishgold, 328 U.S. at 285 (quoting
5

The Prost Concurrence misreads Brown. It understands Brown to create a new necessary condition for applying the pro-veteran canon: interpretive doubt. That is,
the pro-veteran “canon applies only when there is ‘interpretive doubt.’” Prost Concurrence at 6 (emphasis added)
(quoting Brown, 513 U.S. at 118). But Brown does not narrow the Supreme Court’s liberal interpretation rule. The
Supreme Court made clear “interpretative doubt is to be
resolved in the veteran’s favor.” Brown, 513 U.S. at 117–
118. Put simply, if there is interpretive doubt, then the veteran gets the benefit of that doubt. That is a sufficient condition for applying the pro-veteran canon. By mixing necessary and sufficient conditions, the Prost Concurrence
commits a classic fallacy. See, e.g., Wilson v. Horton’s Towing, 906 F.3d 773, 782 (9th Cir. 2018) (“Plaintiff’s argument
commits the logical fallacy of mistaking a sufficient factor
for a necessary one.”); Arar v. Ashcroft, 585 F.3d 559, 601
(2d Cir. 2009) (“This appears to reflect a classic logical fallacy, ‘denial of the antecedent,’ which mistakes a necessary
condition for a sufficient one.”); cf. N. Am. Philips Corp. v.
Am. Vending Sales, Inc., 35 F.3d 1576, 1580 (Fed. Cir.
1994) (“To suppose that a state must have a pecuniary interest in a matter . . . is to mistake a necessary for a sufficient condition for the assertion of personal jurisdiction.”).

94a
Boone, 319 U.S. at 575). And, in Henderson, which postdated Brown, the Supreme Court again cited to King. See
Henderson, 562 U.S. at 441 (quoting King, 502 U.S. at 220–
221, n.9). If Brown changed the law, one would think the
Supreme Court would acknowledge that fact rather than
continue to rely on the line of cases relying on Boone.
The panel majority’s latest approach is inconsistent
with multiple Supreme Court cases which discuss the proveteran canon and treat it as one of the many canons of
construction to be collectively employed when interpreting
veterans benefit provisions. See, e.g., Henderson, 562 U.S.
428; King, 502 U.S. 215. It is particularly important to include the pro-veteran canon in the interpretive mix when,
not only is the entire statutory scheme at issue a beneficent
one, but the particular provision at issue is intended to
remedy administrative wrongs against veterans, as
§ 3.156(c)(1) does by relieving veterans of the finality of an
adverse decision when records in the VA’s possession relating to that decision are located and could upend the denial
of benefits.
Once having started down the road of its interpretive
exercise, the majority in Kisor IV was bound to include the
pro-veteran canon of construction in its analysis and give
effect to it along with other applicable canons of construction. See, e.g., Kisor II at 2415 (saying all canons get construed at step one). The question here is not so much
whether the word “relevant” (as used in 38 C.F.R.
§ 3.156(c)) could possibly have a restrictive meaning (as the
Kisor IV majority appears to believe). Rather, when reviewing an agency’s interpretation of a statute or regulation (as
is the case here), the Supreme Court has made clear that
we are to apply all tools of statutory construction to glean
congressional intent. Where differing plausible, reasonable
interpretations of the terms of a regulation are possible,

95a
Congress has spoken: it wants veterans’ benefits to be administered in a “pro-claimant” manner. Congress’s explicit
pro-veteran desire in the VJRA, as well as the remedial nature of 38 C.F.R. § 3.156(c), lead me to conclude that the
pro-veteran canon should be used alongside traditional
tools of statutory construction in this case.6 Kisor IV’s failure to recognize as much flies in the face of clearly expressed congressional intent.
To be sure, there are certain rules courts may apply
when all efforts to figure out the meaning of a statute or
regulation leave courts to “guess as to what Congress intended.” Abramski v. United States, 573 U.S. 169, 188 n.10
(2014) (discussing rule of lenity) (quoting Maracich v.
Spears, 133 S. Ct. 2191, 2209 (2013)). These are judgemade tie breakers implementing judicial policy choices,
however. Auer is one such tie breaker, as is the canon of
constitutional avoidance. These do not represent rules implementing congressional intent, however, they are rules
courts fall back on when congressional intent cannot be ferreted out. The Prost Concurrence is wrong to equate the

6

This does not mean that the veteran will always win when
the canon is considered. It may well be that other more appropriate interpretive tools compel a different resolution of
the question presented. See Lockhart v. United States, 136
S. Ct. 958, 963 (2016) (applying the rule of the last antecedent as a statutory canon of construction to avoid finding
a criminal statutory term ambiguous, but noting that “[o]f
course, as with any canon of statutory interpretation, the
rule of the last antecedent ‘is not an absolute and can assuredly be overcome by other indicia of meaning’”) (citations omitted). In this case, there is no such interpretive
tool compelling the result the panel majority reaches.

96a
two.7 Here, as mentioned before, we know Congress’s intent
from multiple indicators—including the text of the VJRA
itself—and that intent provides the backdrop against
which the interpretive inquiry in veterans’ benefit cases is
to occur. See, e.g., Fishgold, 328 U.S. at 285 (“Our problem
is to construe the separate provisions of the [Selective Service] Act as parts of an organic whole and give each as liberal a construction for the benefit of the veteran as a harmonious interplay of the separate provisions permits.”); see
also King, 502 U.S. at 221 n.9 (“Even if the express examples [in other portions of the Act] unsettled the significance
of subsection (d)’s drafting, however, we would ultimately
read the provision in King’s favor under the canon that provisions for benefits to members of the Armed Services are

7

The Prost Concurrence is also wrong when it discusses
the difference between “descriptive” and “normative” canons, characterizes the latter as less important, and then
places the pro-veteran canon in the normative bucket, citing Arangure v. Whitaker, 911 F.3d 333, 346 (6th Cir.
2018). Putting aside the fact that Arangure never mentions
the pro-veteran canon, it also never explains whose
“norms” it was discussing—Congress’s policy choices or the
courts’ policy choices. And, Arangure expressly concludes
that the Supreme Court has never created a hierarchy
ranking the importance of canons of construction, has applied even what some classify as classic policy-based canons at step one of the Chevron analysis, has adopted a “canons first” approach to Chevron, and that “most canons” are
“traditional tools of statutory construction” that apply at
step one. As the Supreme Court did in King, the pro-veteran canon is to be considered on the way to determining
whether a genuine ambiguity within the meaning of Chevron exists. Characterizing the canon as “normative” does
not change that fact.

97a
to be construed in the beneficiaries’ favor.”) (citing Fishgold, 328 U.S. at 285).
This is why the majority’s cf. cite to Connecticut National Bank v. Germain, 503 U.S. 249, 253–54 (1992) is particularly unhelpful to its cause. See Kisor IV Majority Modified Op. at 16. That case stands for the proposition that,
where a statute is clear on its face, the court is to assume
that Congress intended what it clearly said. In other words,
courts must assume that Congress expressed its intention
and that no other “tools” are needed to assess congressional
intent. True. Here, however, the majority does not pretend
to end its analysis with the language of § 3.156(c). It purports to use some, but not all, canons of construction to imbue a single word in the regulation with a thirty-nine word
definition.8 That case is also unhelpful to the panel majority’s cause because it was not decided in the context of a
remedial scheme designed to benefit the class of claimants
of which the appellant was a part.
A return to the Supreme Court’s decision in Christopher
is instructive. Christopher involved the FLSA, whose legislative history indicated that Congress passed it with the
goal, inter alia, of “protect[ing] all covered workers from
substandard wages and oppressive working hours.” Christopher, 567 U.S. at 147 (citation omitted). Petitioners argued that their employers violated FLSA by failing to compensate them for overtime. The Department of Labor submitted an amicus brief to the Court arguing that the Department interpreted its own regulations to exclude Petitioners from FLSA’s overtime protections and asked the
Court to defer to that conclusion under Auer. Relevant
here, the Justices reasoned that to give deference to the

8

As noted later, the panel majority does not even stay true
to the canons on which it purports to rely.

98a
Department would do damage to the remedial intent behind FLSA. It considered all tools of statutory interpretation with that remedial backdrop in mind. Thus, it did not
relegate the remedial purpose of the scheme to an afterthought.9
I do not agree with the Prost Concurrence that the proveteran canon is a canon of last resort in the interpretive
process, to be relegated to the end of the analysis. Nor do I
believe Congress legislated with that mindset. After a tortured walk through the history of the pro-veterans canon,
the Prost Concurrence concludes that whatever its form (a
liberal construction principle or a narrower tie-goes-to-therunner principle), it comes only at the end, if at all. The
Prost Concurrence is clear that the pro-veteran canon applies only after other canons “yield[] competing plausible
interpretations, none of which is fairly described as the
best.” Prost Concurrence at 2. What the Prost Concurrence
never tells us is—by what measure do we decide if one
plausible interpretation is “the best.” Canons of construc-

9

The Prost Concurrence claims Christopher held that the
remedial purpose canon was “inapposite because the Court
was interpreting a general definition that applies throughout the FLSA.” Prost Concurrence at 11 (internal quotations omitted). But the Prost Concurrence conflates two interpretive canons. In a footnote, the Court discusses a rule
of narrow construction: “exemptions to the FLSA must be
‘narrowly construed against the employers seeking to assert them. . . .’” 567 U.S. at 164 n.21 (quoting Arnold v. Ben
Kanowsky, Inc., 361 U.S. 388, 392 (1960)). Relegation of
that narrow construction rule does not undermine the
Court’s lengthy discussion of and reliance on the statute’s
remedial purpose. Id. at 166–67. Most critically, Christopher applied the remedial construction canon at Chevron
step one.

99a
tion “are an unruly team,” often “pulling in opposite directions.” Sullivan v. Freeman, 944 F.2d 334, 337 (7th Cir.
1991). Such is not unusual. But when the text yields competing plausible interpretations, all of the canons ought to
be consulted and weighed in the analysis.
Given the importance of the issue—the scope and applicability of a canon of construction—and the enormous
impact of today’s determination that the pro-veteran canon
is all but inapplicable to future cases, I dissent from the
court’s refusal to take the issue en banc.
III.
Putting aside the pro-veteran canon and the role it
should play in the inquiry before us, the actual interpretive
exercise in which the panel now engages is flawed on multiple other levels. As the panel recognized in Kisor I, the
plain language of 38 U.S.C. § 501 provides no clear indication that Congress intended for a “relevant” record as described in 38 C.F.R. § 3.156(c)(1) to “address a dispositive
issue and therefore . . . affect the outcome of the proceeding” as the VA Secretary and the Kisor IV majority now
contend. Kisor IV Majority Modified Op. at 9. Nor does the
legislative history behind 38 U.S.C. § 501(a) (or its statutory precursor, 38 U.S.C. § 210(c)), provide such an indication. See Pub. L. No. 85–857, § 210(c) 72 Stat. 1105, 1114
(1958); see also Pub. L. No. 102–83, § 501(a) 105 Stat. 378,
386 (1991). The majority also fails to apply the canon of
imputed common law meaning, which states that “[w]here
Congress uses terms that have accumulated settled meaning under . . . the common law, a court must infer, unless
the statute otherwise dictates, that Congress means to incorporate the established meaning of these terms.” Neder
v. U.S., 527 U.S. 1, 21 (1999) (quoting Nationwide Mut. Ins.
Co. v. Darden, 503 U.S. 318, 322 (1992)). As Judge Reyna

100a
points out in his panel dissent, the majority’s strained definition of relevant in § 3.156(c)(1) is inconsistent with the
way we have defined relevance in multiple other veteranrelated contexts. As he explains, it is inconsistent with how
we have interpreted relevance in the context of 38 U.S.C.
§ 5103(A). See, e.g., Jones v. Wilkie, 918 F.3d 922, 926 (Fed.
Cir. 2019) (holding records need not “prove” claim to be relevant); McGee v. Peake, 511 F.3d 1352, 1357 (Fed. Cir.
2008) (holding records need not be dispositive of claim to
be relevant); Golz v. Shinseki, 590 F.3d 1317, 1321 (Fed.
Cir. 2010) (holding records need only relate to a claim and
have a reasonable possibility of substantiating it). And, it
is inconsistent with what we have said qualifies as “material” evidence, a directly comparable concept. See Kisor IV
Dissent Modified Op. at 11–13. I commend the reader to
those thoughtful discussions.
Beyond these inconsistencies, the definition the Kisor
IV majority now crafts is also inconsistent with both common and legal usages of the term “relevant.” Rather than
needing to be “relevant to an issue that was dispositive” as
the Kisor IV majority asserts, see Kisor IV Majority Modified Op. at 9, the plain meaning of “relevant” simply indicates that something is “[b]earing on or connected with the
matter in hand; closely relating to the subject or point at
issue; pertinent to a specified thing,” Relevant, adj., OED
ONLINE, https://www.oed.com/view/Entry/161893?redirectedFrom=relevant#eid (last visited Apr. 14, 2021). The
Federal Rules of Evidence similarly provide an expansive
definition of legal relevance. See Fed. R. Evid. 401 (defining
evidence as relevant if “it has any tendency to make a fact
more or less probable than it would be without the evidence; and the fact is of consequence in determining the
action”). And, other circuits have recognized as much. See,
e.g., United States v. Guerrero-Cortez, 110 F.3d 647, 652
(8th Cir. 1997) (noting that “[t]he threshold of relevance []
is quite minimal”); United States v. Hamzeh, 986 F.3d

101a
1048, 1052 (7th Cir. 2021) (“Whether evidence is relevant
is a low threshold.”); Bielunas v. F/V Misty Dawn, Inc., 621
F.3d 72, 76 (1st Cir. 2010) (reasoning that “[a] relevancybased argument is usually a tough sell” given how broadly
the Federal Rules of Evidence define relevance).
In all of these ways, the Kisor IV majority ignores normal textual, contextual, and linguistic cues that point to an
appropriate interpretive conclusion: Mr. Kisor is right that
his detailed combat records are relevant to his service-related claim for benefits. The Kisor IV majority’s definition
of “relevant” is a strained, Federal Circuit-specific definition that is not only out of step with common and legal usages of the term, but ignores the remedial context in which
it appears.
It is an interpretation, moreover, that none of the concurring opinions even pretend to defend. The Prost and
Hughes Concurrences are silent on the issue.10 And the
Concurrence by Judge Dyk (“Dyk Concurrence”) takes direct issue with the majority’s interpretation, seeming to
agree with the dissent’s broader interpretation:
As the panel majority appears to admit, “[r]elevant
records for the purpose of § 5103A are those records
that relate to the injury for which the claimant is
seeking benefits and have a reasonable possibility of
helping to substantiate the veteran’s claim.” Golz v.
Shinseki, 590 F.3d 1317, 1321 (Fed. Cir. 2010) (emphasis added)
Dyk Concurrence at 2–3 (citing Kisor IV Majority Modified
Op. at 13) (emphasis in original). While the Dyk Concurrence says the panel got it wrong, it also says it is not an
10

In this way, the Prost Concurrence is simply an interesting discussion of principles of construction untethered from
the facts of this case.

102a
important enough error to fix via the en banc process. Id.
at 4. But, not fixing the error leaves intact a precedential
interpretation of an important and oft-resorted to remedial
regulation. It leaves intact a precedential decision effectively nullifying the pro-veteran canon of construction.
And, it means that not only does the veteran lose here, he
loses for reasons that the Dyk Concurrence concedes are
wrong. We should not let any of that happen.
IV.
I must dissent from the denial of en banc once more in
this matter. This is not a case of the panel majority repeatedly trying to get it right and finally doing so. It is not wisdom coming belatedly, but coming nonetheless. It is a circumstance where the panel majority ignores the remedial
context in which it is operating and employs a strained, incorrect interpretive analysis to justify its ruling against
this veteran. Because we have refused to hear this case en
banc and make clear that the pro-veteran canon trumps
Chevron and Auer, I hope the Supreme Court will be willing to grant certiorari once more, and that the veteran will
finally win.

103a

UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
JAMES L. KISOR,
Claimant-Appellant
v.
DENIS MCDONOUGH, SECRETARY OF
VETERANS AFFAIRS,
Respondent-Appellee
2016-1929
Appeal from the United States Court of Appeals for Veterans Claims in No. 14-2811, Senior Judge Alan G. Lance,
Sr.
REYNA, Circuit Judge, with whom NEWMAN, MOORE, and
O’MALLEY, Circuit Judges, join, dissenting from the denial
of rehearing en banc.
I dissent from the court’s denial of appellant’s petition
for en banc review. As basis, I rely on my dissent to the
underlying majority opinion, which I adopt and incorporate
in this dissent. I make the following comments to cast further light on the importance of the pro-veteran canon of interpretation.
The majority opinion has created a new rule of law and
uses it to reach a decision that will adversely impact thousands of veterans’ claims for service-connected disability
benefits. The majority holds that the pro-veteran canon
only applies where “interpretive doubt” remains after all

104a
other tools of statutory construction fail to resolve ambiguities. This means that the pro-veteran canon comes into
play at the bottom of the ninth inning, after three outs have
been made, and as the players head to their respective dugouts. But by then, it’s game over.
The veterans disability statutes are remedial, and disability benefits provisions are benevolent in nature. Dissent
Modified Op. at 3. Congress plainly intended that when an
ambiguity arises in the interpretation of a provision pertaining to the award of disability benefits, resolution
should tilt in favor of the veteran.1 There is no distinction
between ambiguity and interpretive doubt.
In sum, this case precisely illustrates the error inherent
in this court’s new “interpretive doubt” rule. First, the majority determined that there exists ambiguity in the meaning of the “relevant records” provision. Next, it considered
arguments favorable to the VA’s interpretation of “relevant
records.” Then, it applied some canons of statutory construction to reach a decision that was not favorable to veterans. Last, it determined that since it arrived at a construction, it no longer had “interpretive doubt,” so the proveteran canon did not apply. Dissent Modified Op. at 21
(citing Majority Modified Op. at 16). Here, the majority utilized every single canon in its armory to find the provision
unambiguous and avoid resorting to the pro-veteran canon.

1

See Henderson v. Shinseki, 562 U.S. 428, 439 (2011) (“The
solicitude of Congress for veterans is of long standing. And
that solicitude is plainly reflected in the VJRA, as well as
in subsequent laws that place a thumb on the scale in the
veteran’s favor in the course of administrative and judicial
review of VA decisions.”) (internal quotation marks and citations omitted).

105a
As a result, the pro-veteran canon was left out of the traditional interpretive toolkit altogether.
For these reasons, and those stated in my dissent to the
majority opinion, I dissent to the denial of appellant’s petition for en banc review.

